No.
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
TODD DALTON,
Petitioner,
v.
RAYMOND MADDEN, Warden,
Respondent.
_____________________________________________________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________________________________
PETITION FOR WRIT OF CERTIORARI
__________________________________

FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney - SBN 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
T: (310) 841-6805- F: (310) 841-0817
info@bestdefender.com
Attorney for Petitioner
TODD DALTON

QUESTIONS PRESENTED
I.

Did the California Courts’ Unreasonable Refusal to
Hold an Evidentiary Hearing Entitle Dalton to an
Evidentiary Hearing?

II.

Did Trial Counsel Render Ineffective Assistance by
Failing to Investigate and to Present a Taint and
Memory Expert?

III.

Did Trial Counsel Render Ineffective Assistance by
Permitting the Prosecutor to Elicit Hearsay From
Tiffany’s Fresh Complaint Witness?

IV.

Did the Child Sexual Abuse Accommodation
Syndrome (CSAAS) Evidence Deprive Dalton of Due
Process and a Fair Trial; Did Trial Counsel Render
Ineffective Assistance?

V.

Did the Individual and Cumulative Effect of the
Errors Render Dalton’s Trial Fundamentally Unfair?

VI.

Did the Trial Court Violate Dalton’s Constitutional
Rights by Proceeding on the Amended Information
in Dalton’s Absence?

VII. Was Dalton Denied his Federal Due Process Right to
a Fundamentally Fair Trial by Trying him Absentia?
VIII. Did the Uncharged Tiffany Evidence Deprive Dalton
of Due Process and a Fair Trial?
IX.

Did the Court Reporter’s Failure to Preserve the Voir
Dire and Opening Statements Deny Dalton his
Federal Due Process Right to a Complete and
Accurate Appellate Record?

i

TOPICAL INDEX
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FACTUAL AND PROCEDURAL BACKGROUND . . . . . . . . . 3
REASONS TO GRANT CERTIORARI . . . . . . . . . . . . . . . . . . . 7
I.

THE CALIFORNIA COURTS’ UNREASONABLE
REFUSAL TO HOLD AN EVIDENTIARY HEARING,
ENTITLES DALTON TO AN EVIDENTIARY
HEARING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

II.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY FAILING TO INVESTIGATE AND
PRESENT A TAINT AND A MEMORY EXPERT . . . . 11

III.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY PERMITTING THE PROSECUTOR
TO ELICIT HEARSAY FROM TIFFANY’S FRESHCOMPLAINT WITNESS . . . . . . . . . . . . . . . . . . . . . . . . . 19

IV.

THE CHILD SEXUAL ABUSE ACCOMMODATION
SYNDROME (CSAAS) EVIDENCE DEPRIVED
DALTON OF DUE PROCESS AND A FAIR TRIAL;
TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ii

V.

THE INDIVIDUAL AND CUMULATIVE EFFECT OF
THE ERRORS RENDERED DALTON'S TRIAL
FUNDAMENTALLY UNFAIR . . . . . . . . . . . . . . . . . . . . 25

VI.

THE TRIAL COURT VIOLATED DALTON’S
CONSTITUTIONAL RIGHTS BY PROCEEDING ON
THE AMENDED INFORMATION IN DALTON'S
ABSENCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

VII. DALTON WAS DENIED HIS FEDERAL DUE
PROCESS RIGHT TO A FUNDAMENTALLY FAIR
TRIAL BY TRYING HIM IN ABSENTIA . . . . . . . . . . . 27
VIII. THE UNCHARGED TIFFANY EVIDENCE
DEPRIVED DALTON OF DUE PROCESS AND A
FAIR TRIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
IX.

THE COURT REPORTER’S FAILURE TO PRESERVE
THE VOIR DIRE AND OPENING STATEMENTS
DENIED DALTON HIS FEDERAL DUE PROCESS
RIGHT TO A COMPLETE AND ACCURATE
APPELLATE RECORD . . . . . . . . . . . . . . . . . . . . . . . . . . 32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ninth Circuit Order
B . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. District Court Judgment
U.S. District Court Order Accepting R&R
U.S. District Court R&R
C . . . . . . . . . . . . . . . . . . . . . . . . . . . CA Supreme Court Disposition
CA Court of Appeal Opinion (D069278)
CA Court of Appeal Opinion (D071642)

iii

TABLE OF AUTHORITIES
FEDERAL CASES
Bell v. Miller, 500 F.3d 149 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . 14
Brecht v. Abrahamson, 507 U.S. 619 (1993) . . . . . . . . . . . . . . . . 24
Britt v. North Carolina, 404 U.S. 226 (1971) . . . . . . . . . . . . . . . . 34
Cannedy v. Adams, 706 F.3d 1148 (9th Cir. 2011) . . . . . . . . . . . 17
Cullen v. Pinholster, 563 U.S. 170 (2001) . . . . . . . . . . . . . . . . . . 10
Earp v. Ornoski, 431 F.3d 1158 (9th Cir. 2005) . . . . . . . . . . . . . 11
Entsminger v. Iowa, 386 U.S. 748 (1967) . . . . . . . . . . . . . . . . . . . 33
Estelle v. McGuire, 502 U.S. 62 (1991) . . . . . . . . . . . . . . . . . . . . . 31
Ferensic v. Birkett, 501 F.3d 469 (6th Cir. 2007) . . . . . . . . . . . . . 14
Harrington v. Richter, 562 U.S. 86 (2011) . . . . . . 11, 15, 16, 18, 19
Johnson v. Finn, 665 F.3d 1063 (9th Cir. 2011) . . . . . . . . . . . . . 11
Karis v. Calderon, 283 F.3d 1117 (9th Cir. 2002) . . . . . . . . . . . . 25
Lockhart v. Fretwell, 506 U.S. 364 (1993) . . . . . . . . . . . . . . . . . . 28
Mayer v. City of Chicago, 404 U.S. 189 (1971) . . . . . . . . . . . . . . 34
Mu’min v. Virginia, 500 U.S. 415 (1991) . . . . . . . . . . . . . . . . . . . 28
Neder v United States, 527 U.S. 1 (1999) . . . . . . . . . . . . . . . . . . . 24
Offutt v. United States, 348 U.S. 11 (1954) . . . . . . . . . . . . . . . . . 28

iv

Rios v. Rocha, 299 F.3d 796 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Silva v. Woodford, 279 F.3d 825 (9th Cir. 2002) . . . . . . . . . . . . . 16
Summerlin v. Schriro, 427 F.3d 623 (2005) . . . . . . . . . . . . . . . . . 16
Taylor v. Maddox, 366 F.3d 992 (9th Cir. 2004) . . . . . . . . . . . . . 10
United States v. Gonzalez-Lopez, 548 U.S. 140 . . . . . . . . . . . . . . 28
United States v. Jeronimo, 398 F.3d 1149 (9th Cir. 2005) . . . . . 17
United States v. Smithers, 212 F.3d 306 (6th Cir. 2000) . . . . . . 14
Williams v. Woodford, 384 F.3d 567 (9th Cir. 2004) . . . . . . . . . . 11
Yarborough v. Gentry, 540 U.S. 1 (2003) . . . . . . . . . . . . . . . . . . . 18
STATE CASES
Anderson v. Justice Court, 99 Cal.App.3d 398 (1979) . . . . . . . . . 13
Corenevsky v. Superior Court, 36 Cal.3d 307 (1984) . . . . . . . . . . 13
People v. Brown, 8 Cal. 4th 746 (1994) . . . . . . . . . . . . . . . . . 20, 21
People v. Gloria, 47 Cal.App.3d 1 (1975) . . . . . . . . . . . . . . . . . . . 34
People v. Housley, 6 Cal.App.4th 951 (1992) . . . . . . . . . . . . . . . . 23
People v. Manning, 165 Cal.App.4th 870 (2008) . . . . . . . . . . . . . 21
People v. McGee, 1 Cal.2d 611 (1934) . . . . . . . . . . . . . . . . . . . . . . 26
People v. Partida, 37 Cal.4th 428 (2005) . . . . . . . . . . . . . . . . . . . 31
People v. Pope, 23 Cal.3d 412 (1979) . . . . . . . . . . . . . . . . . . . . . . . 9
People v. Rivas, 214 Cal.App.4th 1410 (2013) . . . . . . . . . . . . . . . 28
v

People v. Worthy, 109 Cal.App.3d 514 (1980) . . . . . . . . . . . . . . . 13
Tran v. Superior Court, 92 Cal.App.4th 1149 (2001) . . . . . . . . . 13
FEDERAL STATUTES
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5, 10, 11, 17

vi

No.
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
TODD DALTON,
Petitioner,
v.
RAYMOND MADDEN, Warden,
Respondent.
_______________________________________________________
Petitioner, TODD DALTON, petitions for a writ of
certiorari to review the United States Court of Appeals for the
Ninth Circuit’s May 21, 2021 Order denying Dalton’s request for
a certificate of appealablity. (Appendix A)
OPINION BELOW
On May 21, 2021, the Ninth Circuit Court of Appeals
denied Dalton’s request for a certificate of appealablity.
(Appendix A)
JURISDICTION
The jurisdiction of this Court is 28 U.S.C. § 2254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amends. V, VI, XIV; 28 U.S.C.§ 2254.

1

STATEMENT OF THE CASE
On August 9, 2001, a Riverside County Superior Court jury
convicted Todd Dalton of nine sex charges; Lewd acts with a child
under 14, forcible sexual penetration (2 victims) (Cal. Penal Code
§ 288.5, 288(a), 289(a)(1), 667.61(e)(5), 1192.7(c), 803(g). The jury
also found special life sentence allegation to be true.
On December 19, 2014, the trial court re-sentenced Dalton
to sixty-four years to life in state prison.
Dalton appealed his convictions and sentence. On April 28,
2016, the California Court of Appeal (CCA) upheld Dalton’s
convictions, but vacated his sentence and remanded to the trial
court for re-sentencing. (Case No. D069278) (Appendix C)
Dalton filed a petition for review in the California Supreme
Court (CSC). The CSC denied the petition on July 27, 2016.
(Case No. S234910) (Appendix C)
Dalton was re-sentenced to serve a consecutive four-year
term on count 7 and consecutive 15-year-to-life terms on counts 8
and 9, and on May 31, 2017, the CCA upheld Dalton’s sentence.
(Case No. D071642) (Appendix C)
On June 21, 2018, Dalton filed a habeas corpus petition in
2

the CSC. On January 16, 2019, the CSC denied the petition.
(Case No. S249462)
On July 6, 2018, Dalton filed a habeas petition in the
federal district court. On February 21, 2020, the federal district
court denied the petition. (No. 5:18-cv-01445-JLS-KK) (Appendix
B)
On May 21, 2021, the Ninth Circuit denied Dalton’s request
for a Certificate of Appealability. (Appendix A)
FACTUAL AND PROCEDURAL BACKGROUND1
The People's principal witnesses regarding the
charged acts were Dalton's daughters and the alleged
victims, E.D. and S.D. In addition, the testimony of
Dalton's niece, Tiffany, and Tiffany's mother, R., supported
that Dalton had sexually molested then-seven-year-old
Tiffany in 1980 (sometimes referred to as the "Tiffany
evidence"). The Tiffany evidence will be discussed in detail
post. The People further presented (1) expert testimony on
reasons why children may delay their disclosures of sexual
abuse; and (2) evidence to support Dalton's flight from the
jurisdiction after start of trial, including his unknown
whereabouts and investigators' efforts to locate him.
Dalton and his wife M. had six children together; at
trial in 2001, the children were E.D. (19), A. (17), Jason
(15), Jonathan (13), Justin (11), and S.D. (8). E.D. testified
that Dalton had begun sexually molesting her by the time
The facts, taken from the California Court of Appeal’s written
decision on direct review are presumed correct. (Case No.
D069278) 28 U.S.C. § 2254(e)(1); Slovik v. Yates, 556 F.3d 747,
749 n.1 (9th Cir. 2009).
1

3

she was seven, she had clear memories of being sexually
molested when they lived in the "Corona house" (prior to
her being 10), and the molestation continued after the
family's move to a home in Riverside around July 1992
after E.D. had turned 10. The abuse was frequent and each
encounter involved various kinds of offensive
acts—"[w]henever he did stuff, a lot of things happened at
one time . . . most all parts of the body were touched on
numerous times."
While living in the Corona house, E.D. clearly
remembered an incident where Dalton stuck his
finger through a hole in the crotch area of her shorts and
touched her vagina. Then, continuing every year until she
was at least 14, Dalton would undress her and insert his
fingers into her vagina while she lay on a bed. He touched
her breasts at least once a week. Dalton did these acts in
the guise of an examination and/or to "see how [she] was
developing." He also put a "device, a machine, that had two
little probes" on her nipples, chest, and vaginal area,
explaining that he was treating her hernia. Further, while
living in Riverside, under the pretext of showing her an
exercise that would strengthen her for childbirth, E.D.
testified that Dalton twice "stuck his finger up my vagina,
and he had me squeeze some type of muscle."
E.D. described the most typical molestation "routine,"
which happened on a weekly basis beginning when she was
about 10. It would start with Dalton wanting his back or
stomach rubbed in her parents' bedroom, where he relaxed
after work at night. Dalton would show her what to do or
tell her to "go lower" or "higher" until she was rubbing his
"dick." Sometimes he made E.D. rub other parts of his
genitals, and sometimes he would ejaculate. He sometimes
gave her money after these sessions. He would often tell
her to close her eyes while the molestations occurred.
Incidents also occurred outside of Dalton's bedroom.
For example, in one incident while living in Riverside,
Dalton drove E.D. to a garage sale to buy a large fish tank.
They stopped at Dalton's office, where he made her rub his
penis. Another incident occurred on a trip to Catalina
4

Island, where E.D. remembered being made to rub Dalton's
penis and being very frightened that her sleeping brothers
would wake up. E.D. recalled yet another incident where
Dalton came into her room at night, rubbed her chest,
sucked and fondled her nipples, and tried to wake her up.
E.D. pretended to be asleep the whole time.
A different incident in their Riverside home started
with Dalton ostensibly showing E.D. how to shave her pubic
hair, some of which was visible from her bathing suit
bottom. E.D. distinctly remembered lying on her parents'
bed, with her suit bottom off, and Dalton using a dry razor
(a "disposable one") to shave the sides of her pubic area.
During this incident or one just like it where E.D. was
"laying halfway over the bed," Dalton pressed his penis
("the tip . . . of his dick") on her vagina and "put pressure on
it." She "backed up" from the pressure because it hurt.
E.D. also remembered her father telling her not to let any
guys do the same thing to her until she was married.
According to E.D., her father's conduct made her
uncomfortable and she would try to verbally resist by
saying "no" or claiming that she needed to be elsewhere, but
she had not tried to physically get away. Her father had
explicitly warned her not to tell her mother, and E.D. was
scared of breaking up the family. E.D. did not want to
cause her parents to get divorced, and she was not sure
anyone would believe her. Finally, Dalton assured E.D.
that he was helping her to overcome "embarrass[ment]"
with her future husband, and Dalton would not need to
repeat his conduct on S.D.
E.D. eventually did tell her mother about being
sexually molested, when she learned, around the summer of
1999, that S.D. was being sexually molested by Dalton.
S.D. testified at trial that when she was around six, her
father had touched her vaginal area and buttocks (her
"front bum and back bum") in a way she did not like
multiple times. Furthermore, she described being made to
masturbate Dalton to ejaculation on a recurring daily or
weekly basis. S.D. testified that she would "squeeze with
[Dalton's] shirt, and some white stuff came out of his bum
5

in the front." She described squeezing on her father's lower
abdomen region on what she believed to be his "dick" or his
skin ("something . . . it had a little crack in it") until "white
stuff came dripping down." Dalton would tell S.D. to close
her eyes when she was performing these acts. He referred
to the white stuff as "power," and he would wipe it off with
paper towels. S.D. would receive $1 or $5 from Dalton after
masturbating him, and he told her more than once not to
tell anyone. With respect to what was happening with her
father, S.D. "knew something was going wrong," and
eventually told her sister E.D. and mother.
The principal defense witnesses were Dalton's oldest
sons, A. and Jason. Besides testifying generally to their
father's good character, A. and Jason said they had seen
their mother and E.D. "coaching" S.D. on her court
testimony and otherwise influencing S.D. to testify against
her father.2 Letters written by A. and Jason to their father,
grandfather, and/or father's attorney, documenting their
observations of M.'s activities, were admitted in evidence.
A. and Jason testified that, to them, S.D. had denied any
wrongdoing by Dalton. Neither A. nor Jason believed their
father had done anything wrong. A. also recalled being on
the "fish tank" trip with Dalton and E.D. Despite having
made some prior inconsistent statements, A. maintained at
trial that there had been no stop at his father's office during
the fish tank trip.
On rebuttal for the prosecution, Justin indicated that
the letters he and his brothers had written were done at
Dalton's behest. Further, Jonathan remembered S.D. being
alone with Dalton in their parents' locked bedroom multiple
times, and after these sessions, she would come out of the
room with money.

2

A.'s credibility was significantly called into question. He had
sexually molested S.D. when he was 13 and 16, and admitted
being repeatedly dishonest about his own conduct to various law
enforcement officers.
6

REASONS TO GRANT CERTIORARI
I.

THE CALIFORNIA COURTS’ UNREASONABLE
REFUSAL TO HOLD AN EVIDENTIARY
HEARING, ENTITLES DALTON TO AN
EVIDENTIARY HEARING

Throughout the RR, the RR finds trial counsel rendered
effective assistance and no prejudicial error resulted. For
example, the RR binds that “the record does not reveal, and
Petition has not established why trial counsel ultimately decided
not to call the expert as a defense witness at trial.” RR at 12.
The RR overlooks that Dalton sought an evidentiary
hearing at every level of the state habeas proceedings and again
in federal court. The California courts should have held an
evidentiary hearing to allow Dalton to call trial counsel as a
witness and prove that trial counsel rendered ineffective
assistance. See, e.g., People v. Pope, 23 Cal.3d 412, 426 (1979) (An
evidentiary hearing allows trial counsel to fully describe “his or
her reasons for acting or failing to act in the manner complained
of.")
Dalton made a prima facie showing for ineffective
assistance of counsel supported by the record. Assuming the

7

record and other evidence to be true (see Cullen v. Pinholster, 563
U.S. 170, 188 (2001) ) nothing more was required. See Nunes v.
Mueller, 350 F.3d at 1052, 1054 (9th Cir. 2003).
Because no AEDPA deference is due under 2254(d)(2) or
(e)(1) where the state has made an "unreasonable" determination
of the facts, no deference is due in federal court to the state
court’s disputed findings of fact. Taylor v. Maddox, 366 F.3d 992,
1001 (9th Cir. 2004) ("Where a state court makes evidentiary
findings without holding a hearing and giving petitioner an
opportunity to present evidence, such findings clearly result in an
‘unreasonable determination’ of the facts.").
The California courts unreasonably denied Dalton’s claims
without holding an evidentiary hearing; the district court should
have held an evidentiary hearing. See Pinholster, 563 U.S. at 183184 (evidentiary hearing may be proper where § 2254(d) does not
preclude habeas relief); Harrington v. Richter, 562 U.S. 86, 131 S.
Ct. 770, 786, 178 L. Ed. 2d 624 (2011). (where petitioner satisfies
§ 2254(d), claim may be relitigated in federal court); Johnson v.
Finn, 665 F.3d 1063, 1069 n.1 (9th Cir. 2011)(where state court
decision not entitled to AEDPA deference, even after Pinholster
8

it was still proper for district court to hold evidentiary hearing);
see also Earp v. Ornoski, 431 F.3d 1158, 1167 (9th Cir. 2005)
(evidentiary “hearing is required if: ‘(1) [the defendant] has
alleged facts that, if proven, would entitle him to habeas relief,
and (2) he did not receive a full and fair opportunity to develop
those facts’”)(quoting Williams v. Woodford, 384 F.3d 567, 586
(9th Cir. 2004)).
II.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY FAILING TO INVESTIGATE
AND PRESENT A TAINT AND A MEMORY
EXPERT

Trial counsel presented no experts to testify if S.D. and/or
J.D.’s interviews and the time passage tainted their memories
about events involving Dalton. A taint expert, like Dr. Thompson,
would have testified how S.D. and J.D.’s repeated interviewing,
negative stereotype induction, inappropriate interviewing
techniques, source misattribution errors, and interviewer bias
adversely impacted E.D. and S.D.’s testimony and caused them to
testify Dalton molested them. (Exh. A)3
A recognized memory expert like Dr. Loftus would have
The referenced exhibits refer to the exhibits attached to the
Habeas Petition. (Dkt. 1-1)
3

9

testified that recognized scientific data would have shown that
neither E.D., S.D., nor Tiffany could have recalled incident details
and, even if they could have recalled the incident, the memories
had become decayed, distorted and confused. Dr. Loftus would
have testified how memories decay over time, how attention
works, how suggestive post-event information affects memory,
and the lack of correlation between confidence and accuracy. Dr.
Loftus would have shown deficiencies in E.D., S.D. and/or
Tiffany’s memories of the alleged incidents. (Exh. B)
The RR finds that trial counsel properly formulated a
reasonable strategy based on Dalton’s limited resources. RR 12.
The record shows otherwise. Trial counsel advised the court that
he released his expert because he and the prosecutor reached an
agreement that there would not be experts called. (1RT 14) The
RR also notes that the family did not want to spend the money to
have an expert. (1RT 70) RR 14.
The RR overlooks that, under California law, the trial court
must appoint experts at county expense even if an indigent
defendant represented by private counsel People v. Worthy, 109
Cal.App.3d 514, 517 (1980); See Anderson v. Justice Court, 99
10

Cal.App.3d 398, 403 (1979); See Corenevsky v. Superior Court, 36
Cal.3d 307, 319-320 (1984); Tran v. Superior Court, 92
Cal.App.4th 1149 (2001)
"Upon a proper showing of necessity, the trial court must
provide to an indigent defendant expert defense services, without
regard to whether his counsel is appointed or selected pro bono
counsel. [Citations.]." People v. Worthy, 109 Cal.App.3d at 521.
The RR finds that trial counsel reasonably decided to rely
on the prosecution’s expert to testify on the general issues of
memory and suggestibility. RR 12. The RR finds that “trial
counsel elicited much of the same type of general testimony from
the prosecution’s expert as presented in the expert declarations . .
. ” RR 13.
The RR overlooks that cross-examination does not
effectively substitute for expert testimony. For example, in
Ferensic v. Birkett, 501 F.3d 469, 480-482 (6th Cir. 2007), the
Sixth Circuit held that “other means” of attacking eyewitness
identifications do not effectively substitute for expert testimony
on their inherent unreliability. Similarly, in United States v.
Smithers, 212 F.3d 306 (6th Cir. 2000), the Sixth Circuit held
11

that “the typical methods of “challeng[ing] inconsistencies” in the
eyewitnesses’ testimony “were not an effective substitute” for
expert testimony. See also, Bell v. Miller, 500 F.3d 149, 157 (2d
Cir. 2007) (Where the only evidence identifying a criminal
defendant as the perpetrator is the testimony of one witness, and
where the memory is adversely impacted, defense counsel
rendered ineffective assistance by failing to consider consulting
an expert.)
The RR finds that “trial counsel made a reasonable tactical
decision to elicit materially similar testimony from the
prosecution’s expert as would have been presented through
experts hired by the defense.” RR13. The RR overlooks that,
when deciding if counsel conducted a reasonable strategy, courts
may not "indulge in 'post hoc rationalization' for counsel's
decisionmaking that contradicts the available evidence of
counsel's actions." Harrington v. Richter, 562 U.S. 86.
The RR finds no prejudice occurred as a result of trial
counsel’s failure to call experts to testify in Dalton’s defense. RR
13. The RR finds that the defense experts that Dalton now
proposes would have offered general testimony about how
12

witnesses could be susceptible to taint and suggestion and how
their memory could be unreliable despite testifying confidently.
RR 13. The RR finds that no prejudice resulted because
“overwhelming evidence” supported the jury’s verdict. RR 13.
The RR finds that the E.D., S.D. and Tiffany corroborated each
other. RR 13.
Dalton disagrees because prejudice is found, where
"probability [exists that,] but for counsel's unprofessional errors,
the result of the proceeding would have been different."
Strickland v. Washington, 466 US 668, 694 (1984). The errors
should be considered cumulatively to assess prejudice. Id. at 695,
696; Silva v. Woodford, 279 F.3d 825, 834 (9th Cir. 2002).
A reasonable probability is one "'sufficient to undermine
confidence in the outcome.'" Summerlin v. Schriro, 427 F.3d 623,
640 (2005) (quoting Strickland, 466 U.S. at 693). "This does not
require a showing that counsel's actions 'more likely than not
altered the outcome,' but the difference between Strickland's
prejudice standard and a more-probable-than-not standard is
slight and matters 'only in the rarest case.'" Harrington, 562 U.S.
at 111-12 (quoting Strickland, 466 U.S. at 693). "The likelihood of
13

a different result must be substantial, not just conceivable." Id. at
112.
Even under the deferential AEDPA standard of review, the
California Courts’ summary denial was objectively unreasonable
in light of the lack of evidence showing that trial counsel
conducted an appropriate investigation to explore other potential,
defense options using experts who study how to interview
children and how memories work. 28 U.S.C. § 2254(d)(2)
To state a prima facie case, Dalton need not prove his
claims with absolute certainty. Nunes v. Mueller, 350 F.3d at
1054-1055; see also Cannedy v. Adams, 706 F.3d 1148, 1160-61,
1166 (9th Cir. 2011) (Petitioner's allegations that trial counsel
rendered ineffective assistance sufficient to state a prima facie
case for relief and that petitioner suffered prejudice). Dalton
made a prima facie case showing that his counsel rendered
ineffective assistance. United States v. Jeronimo, 398 F.3d 1149
(9th Cir. 2005).
An omission by trial counsel cannot be labeled as a
"reasonable tactical choice" under Strickland unless it was ruled
out as a possible alternative after a sufficient investigation of the
14

facts and the law. See Rios v. Rocha, 299 F.3d 796, 807, n. 18 (9th
Cir. 2002) (". . [N]o possible justification for failing to at least
conduct a preliminary investigation of both defenses before
choosing one or both.").
The record fails to support the state court's summary
conclusion that trial counsel's chosen defense at trial was a
reasonable tactical decision. While "[t]here is a 'strong
presumption' that counsel's attention to certain issues to the
exclusion of others reflects trial tactics rather than "sheer
neglect.'" Harrington, 562 U.S. at 109 (quoting Yarborough v.
Gentry, 540 U.S. 1, 8, 124 S. Ct. 1, 157 L. Ed. 2d 1 (2003) (per
curiam)), here the state court must have unreasonably relied on
this presumption even when the record reflected no investigation
about the need to consult with expert witnesses.
While the United States Supreme Court has emphasized
that the standard for obtaining relief is designed to be difficult, it
is not insurmountable. See, e.g., Harrington v. Richter, 562 U.S.
86. Dalton is entitled to relief even under the AEDPA's onerous
standard.

Trial counsel’s inexplicable failure to investigate or

even call a taint expert and/or a memory expert deprived Dalton
15

of the effective assistance of trial counsel. Strickland, 466 U.S. at
688, 694.
III.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY PERMITTING THE
PROSECUTOR TO ELICIT HEARSAY FROM
TIFFANY’S FRESH-COMPLAINT WITNESS

The RR finds that the trial court did not rely on the fresh
complaint doctrine to allow the prosecution to present testimony
about the details of Tiffany’s disclosure to her mother. Instead,
the RR finds that the trial court allowed the prosecution to
present the testimony as prior consistent statements to
rehabilitate Tiffany’s credibility after the defense claimed that
she had fabricated her testimony. RR 15.
The RR overlooks that only trial counsel, not the
prosecutor, could challenge the details of Tiffany’s fresh
complaint to Rhonda as a prior inconsistent statement. People v.
Brown, 8 Cal. 4th 746, 762 (1994). (1RT 39) (Exh. C at 88) The
prosecution cannot introduce or rely upon the details or
substantive content of the accuser’s complaint. Only the
defendant, who believes that the contents of the accuser’s
extrajudicial fresh complaint may be useful to impeach the

16

accuser’s in-court testimony (or other aspects of the prosecution's
case) can introduce and rely upon the details of such a complaint
as a prior inconsistent statement. Cal. Evid. Code § 1235; People
v. Brown, 8 Cal.4th at 762.
Because of trial counsel’s failure to object and even worse,
because trial counsel agreed the prosecutor could admit Tiffany’s
fresh complaint to Rhonda as consistent or inconsistent
statements, the prosecution elicited prohibited hearsay evidence.
Rhonda then testified about what Tiffany told her Dalton did to
her. (1RT 160-162) (Exh. D at 98-99)
The admission of Tiffany’s hearsay via Rhonda allowed the
prosecution to exceed the boundaries of the fresh complaint
doctrine and the Brown limitations. Because the prosecution
elicited the details of Tiffany’s extrajudicial complaint, the jury
viewed the “details as tending to prove the truth of the
underlying charge of sexual assault [citation], thereby converting
the victim's statement into a hearsay assertion [citation].” People
v. Brown, 8 Cal. 4th at 760-63.
The prosecution had no forensic or physical evidence
linking Dalton to any decades old offense against Tiffany. Rhonda
17

testified, not only about the circumstances under which Tiffany
revealed that Dalton touched her, she testified about what
Tiffany said Dalton did to her even though she never really
remembered what Tiffany told her.
Trial counsel not only failed to object to Tiffany’s hearsay to
her mother, trial counsel also failed to request a fresh complaint
instruction. People v. Manning, 165 Cal.App.4th 870, 880 (2008).
(Trial court may issue a fresh complaint instruction upon request)
Trial counsel rendered ineffective assistance and relief should be
granted. Strickland, 466 U.S. at 688, 694.
IV.

THE CHILD SEXUAL ABUSE
ACCOMMODATION SYNDROME (CSAAS)
EVIDENCE DEPRIVED DALTON OF DUE
PROCESS AND A FAIR TRIAL; TRIAL
COUNSEL RENDERED INEFFECTIVE
ASSISTANCE

Veronica Thomas, Ph.D., testified for the prosecution about
Child Sexual Abuse Accommodation Syndrome (‘CSAAS’) to
explain how sexually abused children react, including why
accusers delay disclosure of the abuse. (2RT 268-304.) (Exh. E at
127) Thomas essentially assumed, based on hypothetical
behaviors by sexually abused children, that Dalton sexually

18

abused E.D., S.D. and Tiffany. The testimony unfairly
corroborated the accusers’ testimony, lowered the prosecution’s
burden of proof and deprived Dalton of due process and a fair
trial. Trial counsel rendered ineffective assistance by failing to
object. Strickland, 466 U.S. at 688, 694.
The RR finds that no error occurred because the
prosecution’s CSAAS expert made clear that she was not making
any conclusions about whether the victims had been sexually
abused. Accordingly, the RR finds trial counsel could not have
been ineffective by failing to challenge the CSAAS evidence. RR
16.
Dalton disagrees. CSAAS evidence cannot be limited to the
description of myths surrounding abuse. An accuser’s behavior
will always fit CSAAS because the syndrome has no fixed
characteristics; every conceivable behavior fits the syndrome, e.g.,
immediate disclosure and delayed disclosure, retraction and no
retraction. A jury will use the CSAAS syndrome to accept the
accuser’s version of events and believe abuse occurred no matter
what the accuser says because jurors cannot differentiate
between an accuser’s conduct consistent with CSAAS and
19

whether sexual abuse occurred. People v. Housley, 6 Cal.App.4th
951, 958 (1992).
A jury will misconstrue CSAAS “expert” testimony as
corroboration of the accuser’s accusations. Id. Although a limiting
instruction may seem to solve the problem (id. at 958-959), the
“limiting” instruction allows jurors to use the testimony to
corroborate the accuser’s credibility about whether a sexual
assault occurred.
The CSAAS evidence had a substantial and injurious effect
or influence on the jury's verdict. Brecht v. Abrahamson, 507 U.S.
619, 637 (1993). It cannot be concluded beyond a reasonable doubt
that the CSAAS testimony was “unimportant in relation to
everything else the jury considered on the issue in question, as
revealed in the record” or that the jury’s verdict was “surely
unattributable” to that evidence. Neder v United States, 527 U.S.
1, 38 (1999) [internal quotes omitted].
The CSAAS evidence unfairly corroborated the accusers’
otherwise uncorroborated testimony and deprived Dalton due
process and a fair trial. The highly inflammatory CSAAS
testimony should not have been admitted and trial counsel
20

rendered ineffective assistance by failing to object. Strickland,
466 U.S. at 688, 694.
V.

THE INDIVIDUAL AND CUMULATIVE EFFECT
OF THE ERRORS RENDERED DALTON'S
TRIAL FUNDAMENTALLY UNFAIR

The RR finds no cumulative error because no single error
occurred. RR 17. Dalton disagrees. The prejudicial individual
errors (Claims 1-IV) mandated relief and the cumulative effect of
errors deprived Dalton of due process and a fair trial under
clearly established federal law. Karis v. Calderon, 283 F.3d 1117,
1132 (9th Cir. 2002).
VI.

THE TRIAL COURT VIOLATED DALTON’S
CONSTITUTIONAL RIGHTS BY PROCEEDING
ON THE AMENDED INFORMATION IN
DALTON'S ABSENCE

On June 22, 2000, the prosecution filed an Original
Information (OI) charging Dalton with seven sex offenses. The
Amended Information (AI) split two Cal. Penal Code § 288.5
charges (Cts. 3, 7) into Cal. Penal Code § 288 (a) charges (Cts. 3,
4, 8, 9). (1RT 62, 84.) The prosecution added a statute of
limitations section. Cal. Penal Code § 803(g)(1). The prosecution
added specific dates to Counts 1 through 6. (1RT 47-51, 84-85,

21

88.) Dalton had a constitutional right to be present and formally
arraigned. The failure to arraign Dalton violated his due process
and fair trial constitutional rights.
The RR finds that no due process error occurred because,
even though Dalton was not physically present when the
prosecutor provided the AI, due process only required notice of
and the opportunity to defend against the charges. The RR finds
that even though Dalton was not present, “trial counsel
vigorously defended him against the charges.” RR 21. The RR
also finds that Dalton received notice of the AI, that counsel
needed time to research the AI, and Dalton’s presence at the
formal arraignment would made no difference. RR 22.
The RR overlooks that, in Counts 1 through 5 of the OI, the
alleged dates were outside the statute of limitations. People v.
McGee, 1 Cal.2d 611, 613 (1934). The AI cured the defect by
adding dates and a new Cal. Penal Code § 803 (g) allegation. Cal.
Penal Code § 803 (g) required corroboration by clear and
convincing evidence, and a jury finding on the allegation. The
Cal. Penal Code § 803 (g) allegation changed the burdens placed
upon the prosecution and, even worse, trial counsel could not voir
22

dire on the issue. The AI also included new Cal. Penal Code § 288
(a) charge. (1CT 1-11, 113-116.) The new Cal. Penal Code § 288
(a) charges required a specific intent different than the Cal. Penal
Code § 288.5 charges and exposed Dalton to 15- year to life
indeterminate sentences.
Because the AI changed the entire nature of the case,
Dalton’s trial and arraignment in his absence, and on the Cal.
Penal Code § 288 (a) charges (Ct. 8, 9) deprived Dalton of due
process and a fair trial.
VII. DALTON WAS DENIED HIS FEDERAL DUE
PROCESS RIGHT TO A FUNDAMENTALLY
FAIR TRIAL BY TRYING HIM IN ABSENTIA
Over defense objection, on July 30, 2015, the trial court
ruled that Dalton had voluntarily absented himself, and, because
the jury venire had been sworn and voir dire completed, trial had
commenced. (1RT 55-56, 64-65, 77-78.) The court concluded that
Cal. Penal Code § 1043 allowed the trial to continue in Dalton’s
absence. (1RT 76-78, 86-88.)
The RR finds that Dalton, by voluntarily fleeing the trial,
waived his right to be present. RR 23. Dalton disagrees because
a criminal defendant has federal constitutional rights to an
23

impartial jury, fundamental fairness, due process, and a reliable
determination of guilt. Mu'min v. Virginia, 500 U.S. 415, 429
(1991). “[J]ustice must satisfy the appearance of justice.” Offutt v.
United States, 348 U.S. 11, 14 (1954). “'[F]undamental fairness
[is] the touchstone of due process’ [citation] and so a due process
violation is usually established when the state proceeds in a
manner that renders a trial fundamentally unfair.” People v.
Rivas, 214 Cal.App.4th 1410, 1422 (2013); Lockhart v. Fretwell,
506 U.S. 364, 369 (1993); United States v. Gonzalez-Lopez, 548
U.S. 140, 149, fn. 4 (2006).
The trial did not proceed on the charges listed in the OI.
Instead, in Dalton's absence, the prosecution tried Dalton on
charges that resulted in an indeterminate sentence of 45 years to
life in prison. The RR also overlooks that no substantial
prejudice to the justice system would have resulted if the trial
court suspended the proceedings. Although voir dire had been
completed, no jury had been sworn, no arguments had been made,
and no witnesses testified. Suspending the proceedings would not
have impeded justice.
Much of the trial focused on Dalton's absence. Over defense
24

objection, the trial court permitted flight evidence and issued the
flight instruction. (2RT 341-342 487.) During argument, the
prosecutor highlighted Dalton's absence, stressing that he ran
because he knew he was guilty and did not want to face with the
girls he had abused. (4RT 783-785.) Dalton's absence
unreasonably skewed the outcome because Dalton could not have
received a fair trial in absentia. The trial court did not have to
proceed and terminating the proceedings would not have
prejudiced the system of justice.
VIII. THE UNCHARGED TIFFANY EVIDENCE
DEPRIVED DALTON OF DUE PROCESS AND
A FAIR TRIAL
Over defense counsel’s objection, the trial court admitted
the Tiffany evidence under Cal. Evid. Code §§ 1108 and 1101.
(1RT 33-35.) Accordingly, Tiffany and her mother testified that
Dalton sexually molested then-seven-year-old Tiffany in 1980.
The prosecutor relied heavily on the Tiffany evidence during
closing argument. (4RT 782-783.) Without the Tiffany evidence,
the prosecution only had E.D. and S.D.'s uncorroborated
testimony to prove the charges.
The RR finds that California law permitted the admission
25

of the uncharged acts evidence and that the California law
admitting the evidence did not violate federal law. RR 26. The RR
finds that a federal habeas court cannot review questions of state
evidence law. RR 26-27.
The RR also finds that Dalton fails to show that the state
court’s resolution of the constitutional claim was contrary to, or
an unreasonable application of established United States
Supreme Court authority. RR 26-27.
Dalton disagrees because the admission of the prejudicial,
irrelevant and inflammatory uncharged offenses violated Dalton’s
federal constitutional rights to due process, and rendered his trial
fundamentally unfair. See Estelle v. McGuire, 502 U.S. 62, 70
(1991); People v. Partida, 37 Cal.4th 428, 439 (2005) (“[T]he
admission of evidence, even if erroneous under state law, results
in a due process violation only if it makes the trial fundamentally
unfair.”)
In 2001, Tiffany testified about a 1980 incident she had
with Dalton. In about 1996, nine years later, at 16 years old, she
told her mother. The nearly 10 year delay between the alleged
incident, the disclosure and Dalton’s trial prevented the defense
26

from finding evidence to prove Tiffany had an improper motive.
The prosecutor extensively relied on the Tiffany evidence during
argument. (4RT 761-765, 782-783, 840-841.)
Without the Tiffany evidence, the prosecutor could not have
corroborated S.D.’s testimony because S.D. gave coerced and
conflicting testimony and statements. S.D. never reported
Dalton’s masturbation until the interviewer told her that
masturbation had occurred and asked for the details. (1CT 246248.) S.D. required two professional interviews before she told the
interviewer what she wanted to hear. The S.D. charges would not
have been sustained without the Tiffany evidence.
IX.

THE COURT REPORTER’S FAILURE TO
PRESERVE THE VOIR DIRE AND OPENING
STATEMENTS DENIED DALTON HIS
FEDERAL DUE PROCESS RIGHT TO A
COMPLETE AND ACCURATE APPELLATE
RECORD

Although in 2003, the district attorney requested that the
exhibits be retained, non-transcribed parts of the reported
proceedings were destroyed. The non-transcribed parts of the
reported proceedings should have not been destroyed because the
parties knew that Dalton would return to face justice. The

27

parties knew Dalton would need the entire record on appeal. The
omission of the voir dire proceedings prejudicially affected
Dalton’s constitutional rights because, during voir dire, the jury
was incorrectly told that E.D.’s statements alone could support a
conviction. (1RT 80-81.) In the AI, because the prosecution added
the Cal. Penal Code § 803(g) enhancement, E.D.’s statements
needed corroboration. (1RT 81.)
The RR finds no United States Supreme Court authority
holds that a state criminal defendant has a right to a new trial
where the court reporter’s notes were lawfully destroyed. RR 24.
The RR also finds that Dalton’s trial was recorded and he
absconded. RR 24. The RR also finds that the destruction of the
transcripts did not violate Dalton’s due process rights nor form
the basis of federal habeas relief. RR 24
Dalton disagrees. Dalton had a statutory right to appeal
from a final judgment of conviction. Cal. Penal Code, § 1237.
Dalton was also entitled to a complete and effective appellate
review of his conviction. Entsminger v. Iowa, 386 U.S. 748, 752
(1967). A complete and adequate appeal by an indigent
defendant requires: (1) a competent attorney on appeal, acting as
28

an advocate on behalf of the indigent and (2) an appellate record
that will permit a meaningful, effective presentation of the
indigent’s claims. See Britt v. North Carolina, 404 U.S. 226, 227
(1971); Mayer v. City of Chicago, 404 U.S. 189 (1971).
The reported proceedings should have been transcribed and
saved because the authorities knew Dalton would return either
voluntarily or involuntarily. The destruction of the reported voir
dire proceedings denied Dalton his federal due process right to an
accurate and complete record on appeal and denied Dalton his
right to receive a complete and effective appellate review of his
conviction. People v. Gloria, 47 Cal.App.3d 1, 7 (1975).
CONCLUSION
A certificate of appealability should have been issued
because “(1) ' . . . jurists of reason would find it debatable
whether the district court was correct in its procedural ruling';
and (2) ' . . . jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional
right.'" Morris v. Woodford, 229 F.3d at 780.
A COA should also should have been issued under 28 U.S.
C. § 2253 because “. . . reasonable jurists could debate whether
29

(or, . . . agree that) the petition should have been resolved in a
different manner or that the issues presented were ‘adequate to
deserve encouragement to proceed further.’” Slack v. McDaniel,
529 U.S. 473 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893
and n. 4 (1983).)
Certiorari should be granted.
DATED: September 2, 2021
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

/s Fay Arfa

______________________________
Fay Arfa, Attorney for Petitioner

30

APPENDIX

Case: 20-55197, 05/21/2021, ID: 12121452, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
MAY 21 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

TODD ERIC DALTON,

No.

Petitioner-Appellant,
v.
RAYMOND MADDEN, Warden; MONA
D. HOUSTON,

20-55197

D.C. No. 5:18-cv-01445-JLS-KK
Central District of California,
Riverside
ORDER

Respondents-Appellees.
Before:

MURGUIA and R. NELSON, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX A

Case 5:18-cv-01445-JLS-KK Document 31 Filed 02/21/20 Page 1 of 1 Page ID #:3438

1
2
3
4

JS-6

5
6

UNITED STATES DISTRICT COURT

7

CENTRAL DISTRICT OF CALIFORNIA

8
9
10

TODD ERIC DALTON,
Petitioner,

11
v.

12
13

Case No. EDCV 18-1445-JLS (KK)
JUDGMENT

RAYMOND MADDEN, Warden,
Respondent.

14
15
16
17
18
19
20

Pursuant to the Order Accepting Findings and Recommendation of United
States Magistrate Judge,
IT IS HEREBY ADJUDGED that the Petition is DENIED and this action is
DISMISSED with prejudice.

21
22
23

Dated: 02/21/2020

HONORABLE JOSEPHINE L. STATON
United States District Judge

24
25
26
27
28

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 30 Filed 02/21/20 Page 1 of 2 Page ID #:3436

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

9
10

TODD ERIC DALTON,
Petitioner,

11
12
13
14

Case No. EDCV 18-1445-JLS (KK)

v.
RAYMOND MADDEN, Warden,
Respondent.

ORDER ACCEPTING FINDINGS
AND RECOMMENDATION OF
UNITED STATES MAGISTRATE
JUDGE

15
16
17

Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition for a Writ of

18

Habeas Corpus, the records on file, and the Report and Recommendation of the

19

United States Magistrate Judge. The Court has engaged in de novo review of those

20

portions of the Report to which Petitioner has objected. The Court accepts the

21

findings and recommendation of the Magistrate Judge.

22

In his objections to the Report, Petitioner also requests an evidentiary hearing.

23

However, in habeas proceedings, “an evidentiary hearing is not required on issues that

24

can be resolved by reference to the state court record.” Totten v. Merkle, 137 F.3d

25

1172, 1176 (9th Cir. 1998); see also Earp v. Ornoski, 431 F.3d 1158, 1173 (9th Cir.

26

2005). “It is axiomatic that when issues can be resolved with reference to the state

27

court record, an evidentiary hearing becomes nothing more than a futile exercise.”

28

Totten, 137 F.3d at 1176. Here, the Magistrate Judge concluded all of Petitioner’s

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 30 Filed 02/21/20 Page 2 of 2 Page ID #:3437

1

claims could be resolved by reference to the state court record. Accordingly, the

2

Court denies Petitioner’s request for an evidentiary hearing.

3

IT IS THEREFORE ORDERED that Judgment be entered (1) denying the

4

Petition for a Writ of Habeas Corpus; and (2) dismissing this action with prejudice.

5
6
7
8

Dated: 02/21/2020

HONORABLE JOSEPHINE L. STATON
United States District Judge

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 1 of 28 Page ID #:3348

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

CENTRAL DISTRICT OF CALIFORNIA

8
9
10

TODD ERIC DALTON,
Petitioner,

11
v.

12
13

Case No. EDCV 18-1445-JLS (KK)
REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE
JUDGE

RAYMOND MADDEN,
Respondent.

14
15
16
17

This Report and Recommendation is submitted to the Honorable Josephine L.

18

Staton, United States District Judge, pursuant to 28 U.S.C. § 636 and General Order

19

05-07 of the United States District Court for the Central District of California.

20

I.

21

SUMMARY OF RECOMMENDATION

22

Petitioner Todd Eric Dalton (“Petitioner”) has filed a pro se Petition for Writ

23

of Habeas Corpus pursuant to 28 U.S.C. § 2254, challenging his 2001 state

24

convictions for child molestation. Petitioner asserts claims of ineffective assistance of

25

counsel, violations of his rights to due process and a fair trial, evidentiary error, and

26

cumulative error. Because Petitioner’s claims fail on their merits, the Court

27

recommends denying the Petition.

28

///

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 2 of 28 Page ID #:3349

1

II.

2

PROCEDURAL HISTORY

3

A.

STATE COURT PROCEEDINGS

4

On August 9, 2001, following a jury trial in the Riverside County Superior

5

Court, Petitioner was convicted in absentia1 of two counts of continuous sexual abuse

6

of a child in violation of section 288.5 of the California Penal Code, five counts of

7

lewd act with a child under 14 years in violation of section 288(a) of the California

8

Penal Code, and two counts of unlawful penetration by a foreign object by means of

9

force or threat in violation of section 289(a)(1) of the California Penal Code. 2 CT at

10

448-57. 2 The jury further found true allegations that Petitioner committed offenses

11

on more than one victim within the meaning of sections 667.61(e)(5) and 1192.7(c) of

12

the California Penal Code and, with respect to the crimes against victim E.D.,

13

Petitioner committed acts of substantial sexual conduct that were corroborated by

14

clear and convincing independent evidence within the meaning of section 803(g) of

15
16
17
18
19
20
21
22
23
24
25
26
27
28

As explained herein, Petitioner absconded after jury selection and the trial
proceeded in his absence.
2
The Court’s citations to Lodged Documents refer to documents lodged in
support of Respondent’s September 6, 2018 Response to Motion to Stay and August
7, 2019 Answer. See ECF Docket No. (“Dkts.”) 9, 21. Respondent identifies the
documents in Dkts. 9 and 21 as follows:
1.
Appellant’s Opening Brief in California Court of Appeal
2.
2016 California Court of Appeal opinion on direct appeal
3.
Petition for Review in California Supreme Court
4.
California Supreme Court order denying review
5.
2017 California Court of Appeal opinion on direct appeal
6.
Clerk’s Transcript in Riverside County Superior Court case number
RIF088836 (“CT”)
7.
Reporter’s Transcript in Riverside County Superior Court case number
RIF088836 (“RT”)
8.
Respondent’s Brief in California Court of Appeal
9.
California Supreme Court order denying habeas relief
2
1

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 3 of 28 Page ID #:3350

1

the California Penal Code. Id. at 456, 458-63. On December 19, 2014, 3 the trial court

2

sentenced Petitioner to a state prison term of 75 years to life. 3 CT at 719-20, 752-58.

3

Petitioner appealed his conviction to the California Court of Appeal. Lodgs. 1,

4

8. On April 28, 2016, the California Court of Appeal affirmed the convictions but

5

remanded the action to the trial court for resentencing. Lodg. 2.

6

On remand, the trial court sentenced Petitioner to a state prison term of 64

7

years to life. See 3 CT at 719-20; Lodg. 5 at 2. On May 31, 2017, the California Court

8

of Appeal affirmed the amended sentence. Lodg. 5.

9
10

Petitioner then filed a petition for review in the California Supreme Court.
Lodg. 3. On July 27, 2016, the California Supreme Court denied review. Lodg. 4.

11

Finally, Petitioner filed a habeas corpus petition in the California Supreme

12

Court. See dkt. 5 at 3. On January 16, 2019, the California Supreme Court denied the

13

petition. Lodg. 9.

14

B.

15
16

FEDERAL HABEAS PETITION
On July 6, 2018, Petitioner filed the Petition in this Court challenging his 2001

convictions. Dkt. 1.

17

On July 12, 2018, the Court issued an Order to Show Cause why the Petition

18

should not be dismissed for failure to exhaust Claims One through Five. Dkt. 4. On

19

July 31, 2018, Petitioner filed a Motion for Stay. Dkt. 5. On September 24, 2018, the

20

Court granted Petitioner’s Motion for Stay. Dkt. 11. On January 17, 2019, Petitioner

21

notified the Court that his claims had been exhausted in state court and requested the

22

stay be lifted. Dkt. 12. On January 28, 2019, the Court lifted the stay and ordered

23

Respondent to file an Answer to the Petition. Dkt. 13.

24

On August 7, 2019, Respondent filed an Answer. Dkt. 20. On October 29,

25

2019, Petitioner filed a Traverse. Dkt. 26. This matter thus stands submitted.

26

///

27
28

Thirteen years after he absconded, Petitioner was located and returned to
custody to face sentencing.
3
3

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 4 of 28 Page ID #:3351

1

III.

2

SUMMARY OF FACTS

3
4

For a summary of the facts, this Court relies on the California Court of
Appeal’s 2016 opinion, as those facts pertain to Petitioner’s convictions:4

5

Dalton and his wife M. had six children together; at trial in 2001,

6

the children were E.D. (19), A. (17), Jason (15), Jonathan (13), Justin

7

(11), and S.D. (8). E.D. testified that Dalton had begun sexually

8

molesting her by the time she was seven, she had clear memories of

9

being sexually molested when they lived in the “Corona house” (prior to

10

her being 10), and the molestation continued after the family’s move to a

11

home in Riverside around July 1992 after E.D. had turned 10. The

12

abuse was frequent and each encounter involved various kinds of

13

offensive acts—“[w]henever he did stuff, a lot of things happened at one

14

time . . . most all parts of the body were touched on numerous times.”

15

While living in the Corona house, E.D. clearly remembered an

16

incident where Dalton stuck his finger through a hole in the crotch area

17

of her shorts and touched her vagina. Then, continuing every year until

18

she was at least 14, Dalton would undress her and insert his fingers into

19

her vagina while she lay on a bed. He touched her breasts at least once a

20

week. Dalton did these acts in the guise of an examination and/or to

21

“see how [she] was developing.” He also put a “device, a machine, that

22

had two little probes” on her nipples, chest, and vaginal area, explaining

23

that he was treating her hernia. Further, while living in Riverside, under

24

the pretext of showing her an exercise that would strengthen her for

25
26
27
28

Because this factual summary is drawn from the California Court of Appeal’s
opinion, “it is afforded a presumption of correctness that may be rebutted only by
clear and convincing evidence.” Moses v. Payne, 555 F.3d 742, 746 n.1 (9th Cir.
2008) (citations omitted). To the extent Petitioner alleges the summary is inaccurate,
the Court has independently reviewed the trial record and finds the summary accurate.
4
4

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 5 of 28 Page ID #:3352

1

childbirth, E.D. testified that Dalton twice “stuck his finger up my

2

vagina, and he had me squeeze some type of muscle.”

3

E.D. described the most typical molestation “routine,” which

4

happened on a weekly basis beginning when she was about 10. It would

5

start with Dalton wanting his back or stomach rubbed in her parents’

6

bedroom, where he relaxed after work at night. Dalton would show her

7

what to do or tell her to “go lower” or “higher” until she was rubbing

8

his “dick.” Sometimes he made E.D. rub other parts of his genitals, and

9

sometimes he would ejaculate. He sometimes gave her money after

10

these sessions. He would often tell her to close her eyes while the

11

molestations occurred.

12

Incidents also occurred outside of Dalton’s bedroom. For

13

example, in one incident while living in Riverside, Dalton drove E.D. to

14

a garage sale to buy a large fish tank. They stopped at Dalton’s office,

15

where he made her rub his penis. Another incident occurred on a trip to

16

Catalina Island, where E.D. remembered being made to rub Dalton’s

17

penis and being very frightened that her sleeping brothers would wake

18

up. E.D. recalled yet another incident where Dalton came into her room

19

at night, rubbed her chest, sucked and fondled her nipples, and tried to

20

wake her up. E.D. pretended to be asleep the whole time.

21

A different incident in their Riverside home started with Dalton

22

ostensibly showing E.D. how to shave her pubic hair, some of which

23

was visible from her bathing suit bottom. E.D. distinctly remembered

24

lying on her parents’ bed, with her suit bottom off, and Dalton using a

25

dry razor (a “disposable one”) to shave the sides of her pubic area.

26

During this incident or one just like it where E.D. was “l[]ying halfway

27

over the bed,” Dalton pressed his penis (“the tip . . . of his dick”) on her

28

vagina and “put pressure on it.” She “backed up” from the pressure
5

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 6 of 28 Page ID #:3353

1

because it hurt. E.D. also remembered her father telling her not to let

2

any guys do the same thing to her until she was married.

3

According to E.D., her father’s conduct made her uncomfortable

4

and she would try to verbally resist by saying “no” or claiming that she

5

needed to be elsewhere, but she had not tried to physically get away.

6

Her father had explicitly warned her not to tell her mother, and E.D.

7

was scared of breaking up the family. E.D. did not want to cause her

8

parents to get divorced, and she was not sure anyone would believe her.

9

Finally, Dalton assured E.D. that he was helping her to overcome

10

“embarrass[ment]” with her future husband, and Dalton would not need

11

to repeat his conduct on S.D.

12

E.D. eventually did tell her mother about being sexually molested,

13

when she learned, around the summer of 1999, that S.D. was being

14

sexually molested by Dalton. S.D. testified at trial that when she was

15

around six, her father had touched her vaginal area and buttocks (her

16

“front bum and back bum”) in a way she did not like multiple times.

17

Furthermore, she described being made to masturbate Dalton to

18

ejaculation on a recurring daily or weekly basis. S.D. testified that she

19

would “squeeze with [Dalton’s] shirt, and some white stuff came out of

20

his bum in the front.” She described squeezing on her father’s lower

21

abdomen region on what she believed to be his “dick” or his skin

22

(“something . . . it had a little crack in it”) until “white stuff came

23

dripping down.” Dalton would tell S.D. to close her eyes when she was

24

performing these acts. He referred to the white stuff as “power,” and he

25

would wipe it off with paper towels. S.D. would receive $1 or $5 from

26

Dalton after masturbating him, and he told her more than once not to

27

tell anyone. With respect to what was happening with her father, S.D.

28
6

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 7 of 28 Page ID #:3354

1

“knew something was going wrong,” and eventually told her sister E.D.

2

and mother.

3

The principal defense witnesses were Dalton’s oldest sons, A. and

4

Jason. Besides testifying generally to their father’s good character, A.

5

and Jason said they had seen their mother and E.D. “coaching” S.D. on

6

her court testimony and otherwise influencing S.D. to testify against her

7

father. Letters written by A. and Jason to their father, grandfather,

8

and/or father’s attorney, documenting their observations of M.’s

9

activities, were admitted in evidence. A. and Jason testified that, to

10

them, S.D. had denied any wrongdoing by Dalton. Neither A. nor Jason

11

believed their father had done anything wrong. A. also recalled being on

12

the “fish tank” trip with Dalton and E.D. Despite having made some

13

prior inconsistent statements, A. maintained at trial that there had been

14

no stop at his father’s office during the fish tank trip.

15

On rebuttal for the prosecution, Justin indicated that the letters he

16

and his brothers had written were done at Dalton’s behest. Further,

17

Jonathan remembered S.D. being alone with Dalton in their parents’

18

locked bedroom multiple times, and after these sessions, she would

19

come out of the room with money.

20

Lodg. 2 at 4-7 (footnote omitted).

21

IV.

22

PETITIONER’S CLAIMS FOR RELIEF

23

Petitioner presents the following claims in the Petition:

24

1.

25
26
27

Claim One: Petitioner’s trial counsel rendered ineffective assistance by
failing to investigate and present the testimony of a taint expert;

2.

Claim Two: Petitioner’s trial counsel rendered ineffective assistance by
failing to investigate and present the testimony of a memory expert;

28
7

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 8 of 28 Page ID #:3355

1

3.

Claim Three: Petitioner’s trial counsel rendered ineffective assistance by

2

allowing the prosecutor to elicit hearsay testimony about the allegations

3

of past abuse made against Petitioner by his niece, Tiffany;

4

4.

Claim Four: Petitioner’s rights to due process and a fair trial were

5

violated by the admission of evidence of Child Sexual Abuse

6

Accommodation Syndrome (“CSAAS”) and Petitioner’s trial counsel

7

rendered ineffective assistance by allowing the admission of CSAAS

8

evidence at trial;

9

5.

10
11

Claim Five: All of trial counsel’s alleged ineffective assistance resulted in
cumulative error;

6.

Claim Six: The trial court violated Petitioner’s rights to due process and a

12

fair trial by proceeding on the amended information despite his absence

13

at the arraignment;

14

7.

15
16

Claim Seven: The trial court violated Petitioner’s rights to due process
and a fair trial by proceeding with trial in Petitioner’s absence;

8.

Claim Eight: The trial court violated Petitioner’s rights to due process

17

and a fair trial by allowing the introduction of Petitioner’s prior

18

uncharged acts against Tiffany; and

19

9.

Claim Nine: The destruction of the transcript of voir dire and opening

20

statements violated Petitioner’s due process rights to a complete and

21

accurate record on appeal.

22

See dkt. 1 at 5-6; dkt. 1-1 at 28-113.

23

Respondent contends these claims fail on the merits. Dkt. 20-1 at 8-34.

24

V.

25

STANDARD OF REVIEW

26

Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”),

27

a federal court may not grant habeas relief on a claim adjudicated on its merits in state

28

court unless the adjudication:
8

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 9 of 28 Page ID #:3356

1

(1) resulted in a decision that was contrary to, or involved an

2

unreasonable application of, clearly established Federal law, as

3

determined by the Supreme Court of the United States; or

4

(2) resulted in a decision that was based on an unreasonable

5

determination of the facts in light of the evidence presented in the State

6

court proceeding.

7
8
9

28 U.S.C. § 2254(d).
“‘[C]learly established Federal law’ for purposes of § 2254(d)(1) includes only
‘the holdings, as opposed to the dicta, of th[e] [United States Supreme] Court’s

10

decisions’” in existence at the time of the state court adjudication. White v. Woodall,

11

572 U.S. 415, 419, 134 S. Ct. 1697, 188 L. Ed. 2d 698 (2014). However, “circuit court

12

precedent may be ‘persuasive’ in demonstrating what law is ‘clearly established’ and

13

whether a state court applied that law unreasonably.” Maxwell v. Roe, 628 F.3d 486,

14

494 (9th Cir. 2010).

15

Overall, AEDPA presents “a formidable barrier to federal habeas relief for

16

prisoners whose claims have been adjudicated in state court.” Burt v. Titlow, 571 U.S.

17

12, 19, 134 S. Ct. 10, 187 L. Ed. 2d 348 (2013). The federal statute presents “a

18

difficult to meet . . . and highly deferential standard for evaluating state-court rulings,

19

which demands that state-court decisions be given the benefit of the doubt.” Cullen

20

v. Pinholster, 563 U.S. 170, 131 S. Ct. 1388, 1398, 179 L. Ed. 2d 557 (2011) (internal

21

citation and quotation marks omitted). On habeas review, AEDPA places the burden

22

on petitioners to show the state court’s decision “was so lacking in justification that

23

there was an error well understood and comprehended in existing law beyond any

24

possibility for fairminded disagreement.” Harrington v. Richter, 562 U.S. 86, 103, 131

25

S. Ct. 770, 178 L. Ed. 2d 624 (2011). Put another way, a state court determination

26

that a claim lacks merit “precludes federal habeas relief so long as fairminded jurists

27

could disagree” on the correctness of that ruling. Id. at 101. Federal habeas corpus

28

review therefore serves as “a guard against extreme malfunctions in the state criminal
9

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 10 of 28 Page ID #:3357

1

justice systems, not a substitute for ordinary error correction through appeal.” Id. at

2

102-03 (internal citation and quotation marks omitted).

3

Where the last state court disposition of a claim is a summary denial, this Court

4

must review the last reasoned state court decision addressing the merits of the claim

5

under AEDPA’s deferential standard of review. Maxwell, 628 F.3d at 495; see also

6

Berghuis v. Thompkins, 560 U.S. 370, 380, 130 S. Ct. 2250, 176 L. Ed. 2d 1098

7

(2010); Ylst v. Nunnemaker, 501 U.S. 797, 803-04, 111 S. Ct. 2590, 115 L. Ed. 2d 706

8

(1991). The California Court of Appeal’s April 28, 2016 opinion on direct review (see

9

lodg. 2) stands as the last reasoned decision with respect to Claims Six through Nine.

10

Where, as here with respect to Claims One through Five, the state courts

11

supply no reasoned decision on the claim presented for review, this Court must

12

perform an “independent review of the record” to ascertain whether the state court

13

decision was “an objectively unreasonable application of Supreme Court precedent.”

14

Himes v. Thompson, 336 F.3d 848, 853, 857 (9th Cir. 2003) (citing Delgado v. Lewis,

15

223 F.3d 976, 981-82 (9th Cir. 2000)).

16

VI.

17

DISCUSSION

18

A.

INEFFECTIVE ASSISTANCE OF COUNSEL

19

1.

Background

20

In Claims One through Five, Petitioner argues his trial counsel rendered

21

ineffective assistance of counsel. Dkt. 1 at 5-6; dkt. 1-1 at 28-86. Specifically,

22

Petitioner argues his trial counsel was ineffective for failing to investigate and present

23

taint and memory experts, allowing the prosecutor to elicit hearsay testimony, and

24

allowing the presentation of CSAAS evidence. Dkt. 1 at 5-6; dkt. 1-1 at 28-85.

25

Petitioner further argues all of the alleged ineffective assistance resulted in cumulative

26

error. Dkt. 1 at 6; dkt. 1-1 at 86.

27

///

28

///
10

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 11 of 28 Page ID #:3358

1

2.

Applicable Law

2

Under Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d

3

674 (1984), a petitioner presenting an ineffective assistance of counsel claim must

4

meet a two-prong test establishing: (1) counsel’s performance was deficient, and (2)

5

prejudice resulted from the deficient performance. 466 U.S. at 687. To prove

6

deficient performance, a petitioner must show counsel’s representation fell below an

7

objective standard of reasonableness. Id. at 687-88. Establishing counsel’s deficient

8

performance does not warrant setting aside the judgment, however, if the error had

9

no effect on the judgment. Id. at 691; see also Seidel v. Merkle, 146 F.3d 750, 757

10

(9th Cir. 1998). A petitioner must also show prejudice, such that there is a reasonable

11

probability that, but for counsel’s unprofessional errors, the result of the proceeding

12

would have been different. Strickland, 466 U.S. at 694.

13
14
15
16

3.

Analysis
a.

Investigation and Presentation of Expert Witnesses
i.

Background

In Claims One and Two, Petitioner argues his trial counsel was ineffective for

17

failing to investigate and call experts in the area of witness taint and inaccurate

18

memory. Dkt. 1 at 5-6; dkt. 1-1 at 28-59. In support of his claims, Petitioner attaches

19

declarations from two psychologists stating they could testify to the interview

20

techniques used in interviews with E.D. and S.D.; explain how the interview

21

techniques and other factors might have tainted the reliability of the victims’

22

testimony; explain how human memory is stored, recalled, and reconstructed; and

23

detail the difference between a witness’s confidence in their memory and the accuracy

24

of their memory. Dkt. 1-1, exhs. A-B.

25
26

ii.

Legal Standard

“[C]ounsel has a duty to make reasonable investigations or to make a

27

reasonable decision that makes particular investigations unnecessary.” Strickland, 466

28

U.S. at 691. For deficient investigations, “the test for prejudice is whether the
11

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 12 of 28 Page ID #:3359

1

noninvestigated evidence was powerful enough to establish a probability that a

2

reasonable attorney would decide to present it and a probability that such a

3

presentation might undermine the jury verdict.” Mickey v. Ayers, 606 F.3d 1223,

4

1236-37 (9th Cir. 2010) (citing Wiggins v. Smith, 539 U.S. 510, 535, 123 S. Ct. 2527,

5

156 L. Ed. 2d 471 (2003)).
iii.

6
7

Deficient Performance

Here, Petitioner has not shown his trial counsel failed to investigate the issue of

8

defense experts. In fact, Petitioner’s trial counsel consulted an expert and had the

9

expert on call to testify at trial. 1 RT at 13, 16, 70. The record does not reveal, and

10

Petitioner has not established, why trial counsel ultimately decided not to call the

11

expert as a defense witness at trial. However, a reasonable defense attorney faced

12

with Petitioner’s apparently limited financial resources 5 was “entitled to formulate a

13

strategy that was reasonable at the time and to balance limited resources in accord

14

with effective trial tactics and strategies.” Richter, 562 U.S. at 107.

15

Additionally, it was objectively reasonable for Petitioner’s counsel to rely on the

16

testimony of the prosecution’s expert to testify on the general issues of memory and

17

suggestibility. Strickland, 466 U.S. at 689 (petitioner claiming ineffective assistance of

18

counsel “must overcome the presumption that, under the circumstances, the

19

challenged action ‘might be considered sound trial strategy’”) (quoting Michel v.

20

Louisiana, 350 U.S. 91, 101, 76 S. Ct. 158, 164, 100 L. Ed. 83 (1955)); Morris v. State

21

of Cal., 966 F.2d 448, 456 (9th Cir. 1991) (considering potential tactical reasons for

22

trial counsel’s actions and finding, “[w]e need not determine the actual explanation for

23

trial counsel’s [actions], so long as his failure to do so falls within the range of

24

reasonable representation.”). Trial counsel elicited much of the same type of general

25

testimony from the prosecution’s expert as presented in the expert declarations

26
27
28

The Court notes Petitioner employed retained counsel who informed the trial
court he had arranged for the defense expert to testify at trial “if [Petitioner’s] family
still wishe[d] to spend the resources to have an expert.” Id. at 70.
12

5

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 13 of 28 Page ID #:3360

1

Petitioner now presents in the Petition. 2 RT at 292-93, 296-99, 303-04. Attorneys

2

are permitted to make these types of tactical decisions regarding which witnesses to

3

use at trial and such “choices made after thorough investigation of law and facts

4

relevant to plausible options are virtually unchallengeable.” Knowles v. Mirzayance,

5

556 U.S. 111, 124, 129 S. Ct. 1411, 173 L. Ed. 2d 251 (2009) (citation and quotation

6

marks omitted); see also Lee v. Lizarraga, No. CV 18-9647-DOC (RAO), 2019 WL

7

1866310, at *10 (C.D. Cal. Mar. 29, 2019), report and recommendation adopted, 2019

8

WL 1861309 (C.D. Cal. Apr. 25, 2019) (“[A]ttorney decisions about which witnesses

9

to call[, including expert witnesses,] are tactical decisions that are generally not subject

10

to second-guessing by a reviewing court.”). Here, trial counsel made a reasonable

11

tactical decision to elicit materially similar testimony from the prosecution’s expert as

12

would have been presented through experts hired by the defense.
iv.

13
14

Prejudice

Moreover, Petitioner cannot show prejudice from the absence of the defense

15

experts Petitioner identifies. According to the declarations Petitioner presents, the

16

defense experts would not have offered a conclusion as to whether Petitioner’s

17

victims were truthful and credible. Dkt. 1-1 at 119, 149. Rather, they could have

18

offered general testimony about how witnesses can be susceptible to taint and

19

suggestion and how their memory may be unreliable despite having a high confidence

20

in their memory. Dkt. 1-1, exhs. A-B. This evidence was unlikely to have swayed the

21

jury in Petitioner’s favor given the overwhelming evidence supporting the jury’s

22

verdict.

23

Crucially, the allegations of E.D., S.D., and Tiffany corroborated each other.

24

All three victims testified to a similar pattern of molestation during which Petitioner

25

would ask the victims to rub a portion of his body, often in exchange for money, and

26

then he would proceed to direct the victims to touch his penis. 1 RT at 108-13, 199-

27

200, 202-03; 2 RT 362-63, 365-67, 393, 398. In addition, Tiffany’s mother testified

28

that Tiffany detailed for her facts consistent with the testimony of Tiffany, E.D., and
13

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 14 of 28 Page ID #:3361

1

S.D. at trial. 1 RT at 160. Finally, despite the defense’s theory that the witnesses

2

colluded to lodge false accusations against Petitioner, Tiffany and her mother testified

3

they had no contact with E.D., S.D., or their mother and, thus, had no opportunity to

4

align their testimony. Id. at 127-30, 135, 166-67, 169. Given this consistent testimony

5

it is unlikely the jury would have found the victims’ accounts of the molestations to be

6

tainted or based on faulty memory. Hence, because Petitioner’s counsel’s decision

7

not to present expert witnesses on taint and memory was not deficient performance

8

and did not result in prejudice, Petitioner’s counsel did not render ineffective

9

assistance.
b.

10
11

Hearsay Statements

In Claim Three, Petitioner argues his trial counsel rendered ineffective

12

assistance by allowing the prosecutor to elicit hearsay testimony from Tiffany and her

13

mother about Tiffany’s fresh complaint that Petitioner had molested her. Dkt. 1 at 6;

14

dkt. 1-1 at 60-72. Petitioner does not dispute that under the “fresh complaint

15

doctrine” 6 the prosecutor was allowed to present the fact of Tiffany’s disclosure. Dkt.

16

1-1 at 61-62. However, citing People v. Brown, 8 Cal. 4th 746 (1994), Petitioner

17

argues that to the extent the underlying details of the molestation Tiffany disclosed to

18

her mother were admissible under the fresh complaint doctrine, they would have been

19

admissible only by the defense, and not the prosecutor, in order to impeach the

20

witness. Id. at 62-63, 69-71.

21
22

Petitioner is correct that the California Supreme Court’s decision in Brown
appears to indicate that, within the confines of the fresh complaint doctrine, evidence

23
24
25
26
27
28

“Under the fresh complaint doctrine, ‘proof of an extrajudicial complaint,
made by the victim of a sexual offense, disclosing the alleged assault, may be
admissible for a limited, nonhearsay purpose—namely, to establish the fact of, and
the circumstances surrounding, the victim’s disclosure of the assault to others—
whenever the fact that the disclosure was made and the circumstances under which it
was made are relevant to the trier of fact’s determination as to whether the offense
occurred. The jury may consider the evidence ‘for the purpose of corroborating the
victim’s testimony, but not to prove the occurrence of the crime.’” People v.
Manning, 165 Cal. App. 4th 870, 880 (2008) (citation omitted).
14
6

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 15 of 28 Page ID #:3362

1

of the underlying details of a disclosure could be admitted only by the defense for

2

impeachment purposes. Brown, 8 Cal. 4th at 762. Here, however, the trial court did

3

not rely on the fresh complaint doctrine to allow the prosecution to present testimony

4

about the details of Tiffany’s disclosure to her mother. Rather, the trial court allowed

5

the prosecution to introduce the testimony as prior consistent statements to

6

rehabilitate Tiffany’s credibility after the defense presented a theory that she had

7

fabricated her testimony. 1 RT at 37-41. This was permissible under California’s

8

rules of evidence. See Brown, 8 Cal. 4th at 749 n.1 (noting that fresh complaint

9

evidence “also may be admissible for a hearsay purpose (i.e., to prove the truth of the

10

content of the statement) under an exception to the hearsay rule”); People v. Fair, 203

11

Cal. App. 3d 1303, 1309 (1988) (differentiating between evidence admitted under the

12

fresh complaint doctrine and that admitted as a prior consistent statement, and

13

finding even if evidence were improperly admitted under the fresh complaint doctrine

14

the evidence remained admissible as a prior consistent statement), abrogated on other

15

grounds by Brown, 8 Cal. 4th at 756; Cal. Evid. Code §§ 791, subd. (b) (admissibility

16

of prior consistent statement following evidence of fabrication), 1236 (prior

17

consistent statement exception to hearsay rule).

18

Hence, because the challenged testimony was admissible under state law, there

19

was no basis upon which Petitioner’s trial counsel could have objected. Trial counsel

20

was, therefore, not ineffective for failing to lodge a meritless objection to the

21

evidence. Juan H. v. Allen, 408 F.3d 1262, 1274 (9th Cir. 2005).
c.

22

CSAAS Evidence

23

In Claim Four, Petitioner argues his rights to due process and a fair trial were

24

violated by the presentation of CSAAS evidence and trial counsel was ineffective for

25

allowing the prosecutor to introduce expert testimony on CSAAS. Dkt. 1 at 6; dkt. 1-

26

1 at 73-85.

27
28

To the extent Petitioner argues the use of CSAAS violated his federal
constitutional rights to due process and a fair trial, his claim fails. Brodit v. Cambra,
15

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 16 of 28 Page ID #:3363

1

350 F.3d 985, 991 (9th Cir. 2003) (rejecting habeas claim regarding the admission of

2

CSAAS evidence and finding such evidence is admissible at federal trials under Circuit

3

precedent and that no clearly established Supreme Court precedent precluding the

4

admission of such evidence).

5

Petitioner’s claim further fails to the extent he argues his trial counsel was

6

ineffective for failing to object to the admission of the CSAAS evidence.

7

Notwithstanding the flaws of CSAAS evidence Petitioner alleges or the number of

8

other jurisdictions that have held such evidence inadmissible, such evidence remains

9

admissible under California law. Specifically, under California law, “expert testimony

10

on the common reactions of child molestation victims, known as CSAAS theory

11

evidence, is admissible to rehabilitate such witness’s credibility when the defendant

12

suggests that the child’s conduct after the incident – e.g., a delay in reporting – is

13

inconsistent with his or her testimony claiming molestation.” People v. Julian, 34 Cal.

14

App. 5th 878, 885 (2019) (internal quotation marks and citation omitted). The

15

evidence is not admissible, however, to prove that an individual had been sexually

16

abused or to offer “predictive conclusions, such as alleged child abuse victims should

17

be believed or abused children give inconsistent accounts and are credible

18

nonetheless.” Id. at 886 (internal quotation marks and citation omitted).

19

Here, the prosecution’s CSAAS expert was careful to make clear she was not

20

making any conclusions about whether the victims in this case had actually been

21

molested and she did not offer any “predictive conclusions.” 2 RT 274-75, 277, 287,

22

288-90. Hence, the expert’s testimony was permissible under state law, and trial

23

counsel had no basis upon which to seek its exclusion. Trial counsel was, therefore,

24

not ineffective for failing to challenge the admissible evidence. See Juan H. v. Allen,

25

408 F.3d 1262, 1273-1274 (9th Cir. 2005).

26

///

27

///

28

///
16

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 17 of 28 Page ID #:3364

d.

1
2

Cumulative Error

In Claim Five, Petitioner argues the cumulative impact of the errors alleged in

3

Claims One through Four resulted in a denial of Petitioner’s rights to due process and

4

a fair trial. Dkt. 1 at 6; dkt. 1-1 at 86.

5

Cumulative error applies where, “although no single trial error examined in

6

isolation is sufficiently prejudicial to warrant reversal, the cumulative effect of multiple

7

errors may still prejudice a defendant.” Mancuso v. Olivarez, 292 F.3d 939, 957 (9th

8

Cir. 2002), as amended June 11, 2002) (quoting United States v. Frederick, 78 F.3d

9

1370, 1381 (9th Cir. 1996)) (internal quotation marks omitted). Where no error lies

10

with each alleged claim taken separately, however, there also rests no cumulative error.

11

See Mancuso, 292 F.3d at 957 (“Because there is no single constitutional error in this

12

case, there is nothing to accumulate to a level of a constitutional violation.”). Hence,

13

because the Court has found no error with respect to Claims One through Four, the

14

Court rejects Petitioner’s claim of cumulative error.

15

For all the foregoing reasons, the state court’s denial of Petitioner’s ineffective

16

assistance of counsel claims was not “an objectively unreasonable application of

17

Supreme Court precedent.” Himes, 336 F.3d at 857. Habeas relief is, thus, not

18

warranted on Claims One Through Five.

19

B.

PROCEEDINGS IN PETITIONER’S ABSENCE

20

1.

Background

21

In Claim Six, Petitioner argues the trial court violated his rights to due process

22

and a fair trial by proceeding on the amended information despite Petitioner’s absence

23

at the formal arraignment. Dkt. 1 at 7; Dkt. 1-1 at 87-96. In Claim Seven, Petitioner

24

argues the trial court violated his rights to due process and a fair trial by allowing the

25

trial to proceed in Petitioner’s absence. Dkt. 1 at 7-8; Dkt. 1-1 at 97-102. In Claim

26

Nine, Petitioner argues his due process rights to a complete and accurate record on

27

appeal were violated when the court reporter’s notes of voir dire and opening

28
17

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 18 of 28 Page ID #:3365

1

statements was destroyed after ten years despite Petitioner not having been sentenced

2

due to his absence. Dkt. 1 at 8; Dkt. 1-1 at 111-13.7

3
4

In its 2016 opinion, the California Court of Appeal provided an accurate factual
background of the circumstances underlying Petitioner’s claims:

5

The original information filed in June 2000 against Dalton, on

6

which he was arraigned and pleaded not guilty, charged the following

7

counts: (1) continuous sexual abuse against E.D. between July 1990 and

8

July 1992; (2) a lewd and lascivious act on E.D. by force or duress

9

between July 1992 and July 1993; (3) continuous sexual abuse against

10

E.D. between July 1992 and July 1993; (4) and (5) forcible sexual

11

penetration of E.D. between July 1992 and July 1993; (6) continuous

12

sexual abuse of S.D. between November 1997 and November 1998; and

13

(7) continuous sexual abuse of S.D. between November 1998 and

14

September 1999. Dalton denied the section 667.61, subdivision (e)(5)

15

special circumstance alleged in the information. He was present in court

16

for numerous hearings and pretrial proceedings in 2000 and 2001.

17

On July 24, 2001, trial commenced and jury selection began. On

18

July 26, 2001, jury selection concluded, and the jury was ordered to

19

return to court in several days to be sworn in. Also on July 26, after

20

hearing the arguments of counsel on motions in limine, the court

21

decided it would admit the Tiffany evidence (prior uncharged sexual

22

offense by Dalton). Further, the district attorney presented the court

23

and Dalton’s counsel with a copy of the amended information, which

24

was filed that same day. Dalton and his counsel had received a

25
26
27
28

Respondent argues Petitioner is not entitled to relief on these claims under the
clean hands doctrine. Dkt. 20-1 at 21, 23-24. Similarly, the fugitive disentitlement
doctrine has been used to deny habeas relief to habeas petitioners who have
absconded. See, e.g., Frank v. Yates, 887 F. Supp. 2d 958, 970-73. However, because
Petitioner’s claims fail on the merits, the Court addresses them below rather than
denying them on equitable grounds.
18
7

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 19 of 28 Page ID #:3366

1

preliminary version of the amended information several days prior.

2

Dalton was present in court during all these proceedings.

3

The amended information alleged an exception to the statute of

4

limitations (for counts 1 through 6), and replaced one count of

5

continuous sexual abuse against E.D. and S.D., respectively, with two

6

counts of lewd and lascivious acts in violation of section 288,

7

subdivision (a). Defense counsel received the amended information in

8

Dalton’s presence and stated, “I would be prepared to go forward with

9

’today’s arraignment if counsel and the Court would agree that I can

10

reserve a right to demurrer until Monday [July 30, 2001].” However,

11

Dalton’s counsel ultimately requested arraignment be deferred over the

12

weekend, which was granted by the court.

13

On Monday, July 30, 2001, Dalton did not appear for trial (and

14

his rearraignment), and he could not be located. His counsel reported

15

that Dalton’s car and car keys had been found in front of his father’s

16

business, and that Dalton had complained of chest pains after his last

17

court appearance. The court forfeited Dalton’s bail and issued a warrant

18

for his arrest. Several conferences with counsel followed on whether

19

and how to proceed. The court found that Dalton had voluntarily

20

absented himself from trial, referencing the “highly, highly suspicious

21

circumstances” of Dalton’s disappearance. The court summed up its

22

belief as follows: “To permit [Dalton] to take advantage of his own

23

wrong by disappearing . . . would pervert the ends of justice. He’ll have

24

a trial. All due process rights will be observed. And to stop the

25

proceedings at this point because of this technical entry of a not guilty

26

plea on his behalf . . . would really pervert the justice system.”

27
28

Invoking its statutory authority to do so, the court found that
Dalton was constructively refusing to enter a plea, and the court entered
19

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 20 of 28 Page ID #:3367

1

a “not guilty” plea on his behalf. The court found Dalton had notice of

2

the charges against him, he was in the courtroom when the amended

3

information was presented, discussed, and filed by the People, and the

4

charges were not substantially different than those contained in the

5

original information. The court discussed its concerns regarding the

6

jury’s and public’s perception of the justice system if he were permitted

7

to avoid trial under the circumstances.

8

Dalton remained missing for 13 years until he was arrested in

9

March 2014 on the outstanding warrant. His motion for new trial was

10

denied, and he was sentenced in December 2014. He told probation

11

officers he had fled during his trial because of fear of conviction and

12

threats of being physically harmed in jail.

13

Lodg. 2 at 8-10 (footnote omitted).

14

2.

Amended Information

15

Petitioner argues the trial court violated his rights to due process and a fair trial

16

by proceeding on the amended information without Petitioner being present for a

17

formal arraignment on the amended charging document. Dkt. 1 at 7; Dkt. 1-1 at 87-

18

96.

19
20

a.

State Court Opinion

The California Court of Appeal rejected Petitioner’s claim on direct review,

21

finding Petitioner’s substantial rights were observed and, thus, the trial court did not

22

err by conducting the arraignment on the amended information after Petitioner

23

voluntarily absconded. Lodg. 2 at 11-12.

24

b.

Right to Arraignment

25

“Arraignment is not a procedure required by the due process clause of the fifth

26

amendment.” Valenzuela-Gonzalez v. U.S. Dist. Court for Dist. of Arizona, 915 F.2d

27

1276, 1280 (9th Cir. 1990) (citing Garland v. Washington, 232 U.S. 642, 645, 34 S. Ct.

28

456, 58 L. Ed. 772 (1914); United States v. Coffman, 567 F.2d 960 (10th Cir. 1977)).
20

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 21 of 28 Page ID #:3368

1

Indeed, due process “does not require the state to adopt any particular form of

2

procedure, so long as it appears that the accused has had sufficient notice of the

3

accusation and an adequate opportunity to defend himself in the prosecution.”

4

Garland, 232 U.S. at 645.

5

Under this authority, due process did not afford Petitioner the right to a formal

6

arraignment on the amended information. Rather, due process only entitled him to

7

the notice of the charges in the amended information and the opportunity to defend

8

against those charges. Petitioner received notice of the charges in the amended

9

information on the last day he appeared in court before absconding. 1 RT at 47-51,

10

65-66, 82-86. In addition, although Petitioner was not present for his trial, Petitioner

11

received a jury trial at which his trial counsel vigorously defended him against the

12

charges. Hence, Petitioner’s due process rights were not violated by conducting the

13

arraignment on the amended information after Petitioner absconded.

14

c.

Right to Personal Presence

15

The Supreme Court has recognized that “the right to personal presence at all

16

critical stages of the trial . . . [is a] fundamental right[ ] of each criminal defendant.”

17

Rushen v. Spain, 464 U.S. 114, 117, 104 S. Ct. 453, 78 L. Ed. 2d 267 (1983). Due

18

process protects a defendant’s right to be present “at any stage of the criminal

19

proceeding that is critical to its outcome if his presence would contribute to the

20

fairness of the procedure.” Kentucky v. Stincer, 482 U.S. 730, 745, 107 S. Ct. 2658,

21

96 L. Ed. 2d 631 (1987). However, due process does not require a defendant’s

22

presence where “presence would be useless, or the benefit but a shadow.” Snyder v.

23

Massachusetts, 291 U.S. 97, 106-07, 54 S. Ct. 330, 78 L. Ed. 674 (1934), overruled in

24

part on other grounds by Malloy v. Hogan, 378 U.S. 1, 17, 84 S. Ct. 1489, 12 L. Ed.

25

2d 653 (1964).

26

To the extent federal authority could be interpreted to afford Petitioner the

27

right to a formal arraignment, his presence was not required here because his presence

28

would have been useless. On the last day he appeared at trial, Petitioner received
21

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 22 of 28 Page ID #:3369

1

notice of the amended information and was prepared to be arraigned and enter a not

2

guilty verdict. 1 RT at 47-49. The arraignment was delayed to the next court day

3

simply to allow trial counsel additional time to research legal issues. Id. Moreover, a

4

not guilty verdict was entered on Petitioner’s behalf. Id. at 89. There is, therefore, no

5

reason to believe Petitioner’s presence at the formal arraignment would have changed

6

the outcome of the arraignment or otherwise contributed anything more to the

7

fairness of the procedure.

8

In addition, to the extent Petitioner had a constitutional right to be present at

9

the time he received the notice of the charges as discussed in subsection b., above, he

10

was afforded this right. Petitioner personally received notice of the amended charges

11

against him and was present in court when the prosecution filed the amended

12

information. Id. at 47-51, 66, 83.

13

4.

14

In Claim Seven, Petitioner argues the trial court violated his rights to due

15

process and a fair trial by proceeding with Petitioner’s trial in his absence. Dkt. 1 at 7;

16

dkt. 1-1 at 97-102.

17

Trial In Absentia

The California Court of Appeal denied Petitioner’s claim on direct appeal,

18

finding Petitioner waived his right to be present at trial by voluntarily choosing to be

19

absent. Lodg. 2 at 12-13.

20

As explained above, “the right to personal presence at all critical stages of the

21

trial . . . [is a] fundamental right[ ] of each criminal defendant.” Rushen, 464 U.S. at

22

117. However, the right to be present at trial may be waived by a defendant who

23

voluntarily absents himself. See Diaz v. United States, 223 U.S. 442, 455, 32 S. Ct.

24

250, 56 L. Ed. 500 (1912) (a defendant’s act of “voluntarily absent[ing] himself,”

25

“after the trial has begun[,]” “operates as a waiver of his right to be present, and

26

leaves the court free to proceed with the trial in like manner and with like effect as if

27

he were present” because “[n]either in criminal nor in civil cases will the law allow a

28

person to take advantage of his own wrong.”); see also Taylor v. United States, 414
22

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 23 of 28 Page ID #:3370

1

U.S. 17, 19-20, 94 S. Ct. 194, 38 L. Ed. 2d 174 (1973) (per curiam) (“Petitioner had no

2

right to interrupt the trial by his voluntary absence.”).

3

Here, Petitioner voluntarily fled following jury selection and, thus, waived his

4

right to be present at trial. The trial court, therefore, did not violate due process by

5

proceeding with trial in Petitioner’s absence. See Concepcion v. Adams, No. ED CV

6

10-0123 JFW, 2011 WL 1543940, at *3 (C.D. Cal. Feb. 16, 2011), report and

7

recommendation adopted, No. ED CV 10-0123 JFW, 2011 WL 1585593 (C.D. Cal.

8

Apr. 22, 2011) (denying habeas relief where trial court proceeded with opening

9

statements and first three trial witnesses after Petitioner temporarily escaped from

10

confinement).

11

5.

12

In Claim Nine, Petitioner argues he was denied his due process right to a

Transcripts

13

complete record because by the time he was apprehended and returned for

14

sentencing, the court reporter, pursuant to California law, had destroyed her notes of

15

the non-transcribed voir dire and opening statements from Petitioner’s trial. Dkt. 1 at

16

8; dkt. 1-1 at 111-13.

17
18
19

The California Court of Appeal offered the following summation of the facts
underlying Petitioner’s claim:
In May 2015, Dalton filed a request to augment the appellate

20

record with voir dire transcripts, claiming an insufficiency in voir dire

21

based on the jury having been allegedly given an incorrect statement of

22

law. He contends the jury was told that E.D.’s testimony alone could

23

support a conviction on the charges involving her, which was rendered

24

inaccurate by the statute of limitations allegation under section 803(g).

25

In response to Dalton’s augment request, a Riverside County court

26

reporter returned an affidavit of “no notes,” declaring he had carefully

27

and thoroughly searched for the requested notes, but had concluded

28

“that the notes no longer exist, as they are outside the required ten-year
23

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 24 of 28 Page ID #:3371

1

period that we are required to retain the notes under the Code.” At no

2

point did Dalton request a preservation order.

3

Lodg. 2 at 13-14. The California Court of Appeal then denied Petitioner’s claim

4

because the reporter’s notes were properly destroyed in compliance with state law and

5

Petitioner had not established prejudice. Id. at 14.

6

First, Petitioner has presented no United States Supreme Court authority

7

holding that a state criminal defendant has a constitutional right to a new trial where,

8

as here, the court reporter’s notes were lawfully destroyed. Cf. Norvell v. Illinois, 373

9

U.S. 420, 423-24, 83 S. Ct. 1366, 10 L. Ed. 2d 456 (1963) (no constitutional violation

10

where no trial transcript available due to death of court reporter). Petitioner’s trial

11

was recorded and would have been available for Petitioner’s use in a timely appeal or

12

petition but for petitioner’s decision to flee and remain a fugitive for 13 years.

13

Petitioner has not shown he is entitled to relief under such circumstances. See

14

Bransford v. Brown, 806 F.2d 83, 85-86 (6th Cir. 1986) (noting that there is no

15

constitutional right to a trial transcript where the production of such is impossible and

16

the failure to produce it was not invidiously motivated).

17

Second, to the extent there exists pre-AEDPA circuit authority that a state’s

18

failure to provide a full trial record may violate a defendant’s due process rights and

19

form the basis for federal habeas corpus relief, see Madera v. Risley, 885 F.2d 646,

20

648 (9th Cir. 1989), Petitioner’s claim also fails. In determining whether a trial record

21

was so inadequate that it deprived a constitutionally fair appeal, two criteria should be

22

considered: (1) the value of the transcript to the defendant in connection with the

23

appeal or trial for which it is sought; and (2) the availability of alternative devices that

24

would fulfill the same functions as a transcript. Id. Further, a habeas petitioner must

25

establish prejudice from the lack of a transcript to be entitled to habeas corpus relief.

26

Id. at 648; see also United States v. Anzalone, 886 F.2d 229, 232 (9th Cir. 1989)

27

(“[E]ven assuming there were omissions in the transcripts, appellant cannot prevail

28

without a showing of specific prejudice”).
24

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 25 of 28 Page ID #:3372

1

Here, Petitioner argues the transcript of voir dire was essential to his appeal,

2

specifically to show instructional error. Dkt. 1 at 8; Dkt. 1-1 at 111-13. During jury

3

selection the trial court instructed prospective jurors that the testimony of one witness

4

was enough to prove a given fact. See 1 RT at 80-81. However, following the

5

amended information, Petitioner’s trial counsel became concerned this was no longer

6

a correct statement of the law. Specifically, because the amended information added

7

allegations under section 803(g) of the California Penal Code to extend the statute of

8

limitations with respect to the charges involving E.D., the prosecution was required to

9

present corroborating evidence as to those charges. See 1 CT at 81-83; 1 RT at 80-81;

10

People v. Mabini, 92 Cal. App. 4th 654, 657, 112 Cal. Rptr. 2d 159, 161 (2001)

11

(explaining that at the time of Petitioner’s trial California Penal Code section 803(g)

12

permitted the filing of a section 288 charge after the expiration of the six-year statute

13

of limitations if (1) the filing occurs within one year of the victim’s report of the crime

14

to law enforcement; (2) the crime involves “substantial sexual conduct,” and (3)

15

“there is independent evidence that clearly and convincingly corroborates the victim’s allegation”).

16

However, Petitioner fails to explain how he was prevented from presenting a

17

challenge to the trial court’s instructions to the jury because the voir dire transcript

18

was unavailable. When raised by defense counsel, the trial court concluded the

19

instruction that the testimony of a single witness was sufficient to prove a given fact

20

remained a correct statement of the law and that, in addition to such an instruction,

21

the trial court would instruct the jury regarding the required corroboration for

22

purposes of California Penal Code section 803(g). 1 RT at 81. In addition, the

23

transcript in the record includes all of the instructions the trial court issued to the jury

24

after it was sworn in. Id. at 91-95; 4 RT at 732-57. This provided a sufficient record

25

upon which Petitioner could have challenged the propriety of the trial court’s

26

instructions, both during voir dire and at trial.

27
28

Accordingly, Petitioner has failed to show the destruction of the reporter’s
notes violated his federal constitutional rights or that he was prejudiced. See United
25

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 26 of 28 Page ID #:3373

1

States v. Van Poyck, 980 F. Supp. 1108, 1110 (C.D. Cal. 1997) (finding that defendant

2

failed to show extraordinary circumstances when he failed to explain why the

3

complete court transcripts were necessary for the preparation of his petition); see also

4

United States v. Lewis, 605 F.2d 379, 380 (8th Cir. 1979) (“[A] prisoner has no

5

absolute right to a transcript to assist him in the preparation of a collateral attack on

6

his conviction, and that constitutional requirements are met by providing such

7

materials only after judicial certification that they are required to decide the issues

8

presented by a non-frivolous pending case.”).

9

Hence, the state court’s denial of Petitioner’s claims was not contrary to or an

10

unreasonable application of clearly established federal law. Habeas relief is, thus, not

11

warranted on Claims Six, Seven, and Nine.

12

C.

PRIOR UNCHARGED ACTS

13

In Claim Eight, Petitioner argues the trial court violated his rights to due

14

process and a fair trial by allowing the introduction of evidence of his prior uncharged

15

acts against Tiffany. Dkt. 1 at 8; Dkt. 1-1 at 103-10.

16

The California Court of Appeal denied Petitioner’s claim on direct review,

17

finding the evidence was properly admitted under state rules of evidence. Lodg. 2 at

18

14-19.

19

To the extent Petitioner contends the admission of the challenged evidence

20

violated state law, habeas relief is unavailable. See Estelle v. McGuire, 502 U.S. 62, 67-

21

68, 112 S. Ct. 475, 116 L. Ed. 2d 385 (1991); see also Wilson v. Corcoran, 562 U.S. 1,

22

5, 131 S. Ct. 13, 178 L. Ed. 2d 276 (2010) (“[I]t is only noncompliance with federal law

23

that renders a State’s criminal judgment susceptible to collateral attack in the federal

24

courts.”) (original emphasis); Hendricks v. Vasquez, 974 F.2d 1099, 1105 (9th Cir.

25

1992) (“Federal habeas will not lie for errors of state law[.]”).

26

In addition, the United States Supreme Court “has not yet made a clear ruling

27

that admission of irrelevant or overly prejudicial evidence constitutes a due process

28

violation sufficient to warrant issuance of the writ.” Holley v. Yarborough, 568 F.3d
26

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 27 of 28 Page ID #:3374

1

1091, 1101 (9th Cir. 2009). More specifically, the United States Supreme Court has

2

never held that the admission of prior bad acts evidence to prove propensity violates a

3

criminal defendant’s federal constitutional due process right to a fair trial. See Estelle,

4

502 U.S. at 75 n.5 (“[W]e express no opinion on whether a state law would violate the

5

Due Process Clause if it permitted the use of ‘prior crimes’ evidence to show

6

propensity to commit a charged crime”). This “absence of Supreme Court precedent

7

on point forecloses any argument that the state court’s decision [denying a challenge

8

to the admission of propensity evidence] was contrary to or an unreasonable

9

application of clearly established federal law.” Jennings v. Runnels, 493 Fed. Appx.

10

903, 906 (9th Cir. 2012), cert. denied, 135 S. Ct. 96 (2014). In the absence of such

11

“clearly established Federal law as determined by the United States Supreme Court,”

12

Petitioner is not entitled to federal habeas relief. See Carey v. Musladin, 549 U.S. 70,

13

77, 127 S. Ct. 649, 166 L. Ed. 2d 482 (2006); Moses v. Payne, 555 F.3d 742, 758-59

14

(9th Cir. 2009); Larson v. Palmateer, 515 F.3d 1057, 1066 (9th Cir. 2008) (holding

15

were the Supreme Court has “expressly left [the] issue an ‘open question,’” habeas

16

relief is unavailable).

17

Finally, the admission of evidence can violate due process “only when there are

18

no permissible inferences the jury may draw from the evidence.” Windham v. Merkle,

19

163 F.3d 1092, 1103 (9th Cir. 1998) (original emphasis; citation and internal

20

quotations omitted); see also Estelle, 502 U.S. at 70. Here, the California Court of

21

Appeal ruled that, under state law, the challenged evidence was properly admitted

22

under California Evidence Code section 1108 to show Petitioner’s propensity to

23

commit the charged offenses and under California Evidence Code section 1101 to

24

show intent, plan, and absence of mistake. Lodg. 2 at 16-19. The Court is bound by

25

the state court’s application of state law. Bradshaw v. Richey, 546 U.S. 74, 76, 126 S.

26

Ct. 602, 163 L. Ed. 2d 407 (2005) (“a state court’s interpretation of state law,

27

including one announced on direct appeal of the challenged conviction, binds a

28

federal court sitting in federal habeas”). Because there were permissible inferences the
27

APPENDIX B

Case 5:18-cv-01445-JLS-KK Document 27 Filed 12/13/19 Page 28 of 28 Page ID #:3375

1

jury could have drawn from the challenged evidence, its admission did not violate due

2

process.

3

Hence, the state court’s denial of Petitioner’s evidentiary error claim was not

4

contrary to or an unreasonable application of clearly established federal law. Habeas

5

relief is, thus, not warranted on Claim Eight.

6

VII.

7

RECOMMENDATION

8

IT IS THEREFORE RECOMMENDED that the District Court issue an

9
10

Order: (1) accepting this Report and Recommendation; (2) denying the Petition; and
(3) dismissing this action with prejudice.

11
12
13

Dated: December 13, 2019

HONORABLE KENLY KIYA KATO
United States Magistrate Judge

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
28

APPENDIX B

Appellate Courts Case Information
Change court

Supreme Court
Disposition
PEOPLE v. DALTON
Division SF
Case Number S234910

Only the following dispositions are displayed below: Orders Denying Petitions, Orders Granting Rehearing and Opinions. Go
to the Docket Entries screen for information regarding orders granting review.
Case Citation:
none
Date

Description

07/27/2016

Petition for review denied

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of Use |
Privacy

APPENDIX C

© 2021 Judicial Council of California

Filed 4/28/16 P. v. Dalton CA4/1

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

COURT OF APPEAL, FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA

THE PEOPLE,

D069278

Plaintiff and Respondent,
v.

(Super. Ct. No. RIF088836)

TODD E. DALTON,
Defendant and Appellant.

APPEAL from a judgment of the Superior Court of Riverside County, Edward D.
Webster, Judge. Affirmed in part, vacated in part, and remanded with directions.

Christian C. Buckley, under appointment by the Court of Appeal, for Defendant
and Appellant.
Kamala D. Harris, Attorney General, Gerald A. Engler, Chief Assistant Attorney
General, Julie L. Garland, Assistant Attorney General, Arlene A. Sevidal and Allison V.
Hawley, Deputy Attorneys General, for Plaintiff and Respondent.

APPENDIX C

In 2001, a jury found Todd E. Dalton guilty of nine counts charged in an amended
information: three or more lewd and lascivious acts on E.D. in violation of Penal Code
section 288.51 (continuous sexual abuse), between July 1990 and July 1992 (count 1);
three counts of lewd and lascivious acts on E.D. in violation of section 288, subdivision
(a), between July 1992 and July 1993 (counts 2, 3, and 4);2 two counts of forcible sexual
penetration of E.D. in violation of section 289, subdivision (a)(1), between July 1992 and
July 1993 (counts 5 and 6); continuous sexual abuse of S.D. in violation of section 288.5,
between November 1997 and November 1998 (count 7); and two counts of lewd and
lascivious acts on S.D. in violation of section 288, subdivision (a), between December
1998 and September 1999 (counts 8 and 9). When the offenses were committed, each
victim was under 14 years old; in July 1990, E.D. was eight, and in November 1997, S.D.
was five. For statute of limitations purposes, the jury found that the offenses in which
E.D. was the alleged victim (counts 1 through 6) were corroborated by clear and
convincing independent evidence, within the meaning of section 803, subdivision (g)
(hereafter, section 803(g)).3 The jury also found a special circumstance affecting

1

All further statutory references are to the Penal Code unless otherwise indicated.

2
Count 2 was charged in the amended information as a section 288, subdivision (b)
violation, but reduced to a section 288, subdivision (a) violation prior to jury
deliberations.
3
Unless otherwise specified, all references to section 803(g) are to the earliest
enacted version of the statute. (Stats. 1993, ch. 390, §1, p. 2226.)
2

APPENDIX C

Dalton's sentence, that is, under section 667.61, subdivision (e)(5), he had committed
enumerated offenses on more than one victim.4
Based on the jury's verdicts and findings, the trial court imposed sentences to run
consecutively for each of the counts, totaling 30 years for counts 1 through 6 followed by
three indeterminate terms of 15 years to life for counts 7 through 9.
Dalton raises various claims of error in this appeal. One set of issues relates to his
absconding after start of trial, another set of issues relates to evidence admitted at trial of
a prior uncharged sexual offense and, finally, he challenges the trial court's sentence. His
arguments will be discussed in detail below. For reasons we will explain, Dalton's
convictions are affirmed, but his sentence is vacated and the matter remanded to the trial
court for resentencing.
FACTUAL BACKGROUND
The People's principal witnesses regarding the charged acts were Dalton's
daughters and the alleged victims, E.D. and S.D. In addition, the testimony of Dalton's
niece, Tiffany, and Tiffany's mother, R., supported that Dalton had sexually molested
then-seven-year-old Tiffany in 1980 (sometimes referred to as the "Tiffany evidence").
The Tiffany evidence will be discussed in detail post. The People further presented (1)
expert testimony on reasons why children may delay their disclosures of sexual abuse;

4
Unless otherwise specified, all references to section 667.61, subdivision (e)(5), are
to the earliest enacted version of the statute. (Stats. 1993-94, 1st Ex. Sess., ch. 14, § 1,
p. 8571.)
3

APPENDIX C

and (2) evidence to support Dalton's flight from the jurisdiction after start of trial,
including his unknown whereabouts and investigators' efforts to locate him.
Dalton and his wife M. had six children together; at trial in 2001, the children
were E.D. (19), A. (17), Jason (15), Jonathan (13), Justin (11), and S.D. (8). E.D.
testified that Dalton had begun sexually molesting her by the time she was seven, she had
clear memories of being sexually molested when they lived in the "Corona house" (prior
to her being 10), and the molestation continued after the family's move to a home in
Riverside around July 1992 after E.D. had turned 10. The abuse was frequent and each
encounter involved various kinds of offensive acts—"[w]henever he did stuff, a lot of
things happened at one time . . . most all parts of the body were touched on numerous
times."
While living in the Corona house, E.D. clearly remembered an incident where
Dalton stuck his finger through a hole in the crotch area of her shorts and touched her
vagina. Then, continuing every year until she was at least 14, Dalton would undress her
and insert his fingers into her vagina while she lay on a bed. He touched her breasts at
least once a week. Dalton did these acts in the guise of an examination and/or to "see
how [she] was developing." He also put a "device, a machine, that had two little probes"
on her nipples, chest, and vaginal area, explaining that he was treating her hernia.
Further, while living in Riverside, under the pretext of showing her an exercise that
would strengthen her for childbirth, E.D. testified that Dalton twice "stuck his finger up
my vagina, and he had me squeeze some type of muscle."

4

APPENDIX C

E.D. described the most typical molestation "routine," which happened on a
weekly basis beginning when she was about 10. It would start with Dalton wanting his
back or stomach rubbed in her parents' bedroom, where he relaxed after work at night.
Dalton would show her what to do or tell her to "go lower" or "higher" until she was
rubbing his "dick." Sometimes he made E.D. rub other parts of his genitals, and
sometimes he would ejaculate. He sometimes gave her money after these sessions. He
would often tell her to close her eyes while the molestations occurred.
Incidents also occurred outside of Dalton's bedroom. For example, in one incident
while living in Riverside, Dalton drove E.D. to a garage sale to buy a large fish tank.
They stopped at Dalton's office, where he made her rub his penis. Another incident
occurred on a trip to Catalina Island, where E.D. remembered being made to rub Dalton's
penis and being very frightened that her sleeping brothers would wake up. E.D. recalled
yet another incident where Dalton came into her room at night, rubbed her chest, sucked
and fondled her nipples, and tried to wake her up. E.D. pretended to be asleep the whole
time.
A different incident in their Riverside home started with Dalton ostensibly
showing E.D. how to shave her pubic hair, some of which was visible from her bathing
suit bottom. E.D. distinctly remembered lying on her parents' bed, with her suit bottom
off, and Dalton using a dry razor (a "disposable one") to shave the sides of her pubic area.
During this incident or one just like it where E.D. was "laying halfway over the bed,"
Dalton pressed his penis ("the tip . . . of his dick") on her vagina and "put pressure on it."

5

APPENDIX C

She "backed up" from the pressure because it hurt. E.D. also remembered her father
telling her not to let any guys do the same thing to her until she was married.
According to E.D., her father's conduct made her uncomfortable and she would try
to verbally resist by saying "no" or claiming that she needed to be elsewhere, but she had
not tried to physically get away. Her father had explicitly warned her not to tell her
mother, and E.D. was scared of breaking up the family. E.D. did not want to cause her
parents to get divorced, and she was not sure anyone would believe her. Finally, Dalton
assured E.D. that he was helping her to overcome "embarrass[ment]" with her future
husband, and Dalton would not need to repeat his conduct on S.D.
E.D. eventually did tell her mother about being sexually molested, when she
learned, around the summer of 1999, that S.D. was being sexually molested by Dalton.
S.D. testified at trial that when she was around six, her father had touched her vaginal
area and buttocks (her "front bum and back bum") in a way she did not like multiple
times. Furthermore, she described being made to masturbate Dalton to ejaculation on a
recurring daily or weekly basis. S.D. testified that she would "squeeze with [Dalton's]
shirt, and some white stuff came out of his bum in the front." She described squeezing on
her father's lower abdomen region on what she believed to be his "dick" or his skin
("something . . . it had a little crack in it") until "white stuff came dripping down."
Dalton would tell S.D. to close her eyes when she was performing these acts. He referred
to the white stuff as "power," and he would wipe it off with paper towels. S.D. would
receive $1 or $5 from Dalton after masturbating him, and he told her more than once not

6

APPENDIX C

to tell anyone. With respect to what was happening with her father, S.D. "knew
something was going wrong," and eventually told her sister E.D. and mother.
The principal defense witnesses were Dalton's oldest sons, A. and Jason. Besides
testifying generally to their father's good character, A. and Jason said they had seen their
mother and E.D. "coaching" S.D. on her court testimony and otherwise influencing S.D.
to testify against her father.5 Letters written by A. and Jason to their father, grandfather,
and/or father's attorney, documenting their observations of M.'s activities, were admitted
in evidence. A. and Jason testified that, to them, S.D. had denied any wrongdoing by
Dalton. Neither A. nor Jason believed their father had done anything wrong. A. also
recalled being on the "fish tank" trip with Dalton and E.D. Despite having made some
prior inconsistent statements, A. maintained at trial that there had been no stop at his
father's office during the fish tank trip.
On rebuttal for the prosecution, Justin indicated that the letters he and his brothers
had written were done at Dalton's behest. Further, Jonathan remembered S.D. being
alone with Dalton in their parents' locked bedroom multiple times, and after these
sessions, she would come out of the room with money.

5
A.'s credibility was significantly called into question. He had sexually molested
S.D. when he was 13 and 16, and admitted being repeatedly dishonest about his own
conduct to various law enforcement officers.
7

APPENDIX C

DISCUSSION
I.

Dalton's Voluntary Absence From Trial
A.

Additional Background

One set of issues raised by Dalton on appeal relates to his absconding after start of
trial, while on bail, and remaining absent for over 13 years. The original information
filed in June 2000 against Dalton, on which he was arraigned and pleaded not guilty,
charged the following counts: (1) continuous sexual abuse against E.D. between July
1990 and July 1992; (2) a lewd and lascivious act on E.D. by force or duress between
July 1992 and July 1993; (3) continuous sexual abuse against E.D. between July 1992
and July 1993; (4) and (5) forcible sexual penetration of E.D. between July 1992 and July
1993; (6) continuous sexual abuse of S.D. between November 1997 and November 1998;
and (7) continuous sexual abuse of S.D. between November 1998 and September 1999.
Dalton denied the section 667.61, subdivision (e)(5) special circumstance alleged in the
information. He was present in court for numerous hearings and pretrial proceedings in
2000 and 2001.
On July 24, 2001, trial commenced and jury selection began. On July 26, 2001,
jury selection concluded, and the jury was ordered to return to court in several days to be
sworn in. Also on July 26, after hearing the arguments of counsel on motions in limine,
the court decided it would admit the Tiffany evidence (prior uncharged sexual offense by
Dalton). Further, the district attorney presented the court and Dalton's counsel with a
copy of the amended information, which was filed that same day. Dalton and his counsel
8

APPENDIX C

had received a preliminary version of the amended information several days prior.
Dalton was present in court during all these proceedings.
The amended information alleged an exception to the statute of limitations (for
counts 1 through 6), and replaced one count of continuous sexual abuse against E.D. and
S.D., respectively, with two counts of lewd and lascivious acts in violation of section
288, subdivision (a). Defense counsel received the amended information in Dalton's
presence and stated, "I would be prepared to go forward with today's arraignment if
counsel and the Court would agree that I can reserve a right to demurrer until Monday
[July 30, 2001]." However, Dalton's counsel ultimately requested arraignment be
deferred over the weekend, which was granted by the court.
On Monday, July 30, 2001, Dalton did not appear for trial (and his rearraignment),
and he could not be located. His counsel reported that Dalton's car and car keys had been
found in front of his father's business, and that Dalton had complained of chest pains after
his last court appearance. The court forfeited Dalton's bail and issued a warrant for his
arrest. Several conferences with counsel followed on whether and how to proceed. The
court found that Dalton had voluntarily absented himself from trial, referencing the
"highly, highly suspicious circumstances" of Dalton's disappearance.6 The court
summed up its belief as follows: "To permit [Dalton] to take advantage of his own
wrong by disappearing . . . would pervert the ends of justice. He'll have a trial. All due
process rights will be observed. And to stop the proceedings at this point because of this
6
Dalton remained absent throughout trial. Investigators searched for him at local
motels, coroners' offices, hospitals, and airports.
9

APPENDIX C

technical entry of a not guilty plea on his behalf . . . would really pervert the justice
system."
Invoking its statutory authority to do so, the court found that Dalton was
constructively refusing to enter a plea, and the court entered a "not guilty" plea on his
behalf. The court found Dalton had notice of the charges against him, he was in the
courtroom when the amended information was presented, discussed, and filed by the
People, and the charges were not substantially different than those contained in the
original information. The court discussed its concerns regarding the jury's and public's
perception of the justice system if he were permitted to avoid trial under the
circumstances.
Dalton remained missing for 13 years until he was arrested in March 2014 on the
outstanding warrant. His motion for new trial was denied, and he was sentenced in
December 2014. He told probation officers he had fled during his trial because of fear of
conviction and threats of being physically harmed in jail.
B.

Whether Trial Could Proceed on the Amended Information

Dalton contends he could not be tried on charges for which he was not arraigned,
and the trial court's proceeding on the amended information resulted in a "miscarriage of
justice," i.e., his convictions resulted from a trial in which his essential rights were
disregarded or denied. (People v. Wilson (1913) 23 Cal.App. 513, 524.) He argues that
he had a right to be present and formally told the charges he would be tried on, and the
court had no legal basis to enter a not guilty plea on his behalf.

10

APPENDIX C

We conclude there was no miscarriage of justice by the trial court's proceeding on
the amended information. A defendant generally has a right to be personally present at
his arraignment on felony charges. (See § 977, subd. (b).) An arraignment informs the
accused of the charge and gives him an opportunity to plead. (People v. Carter (1966)
245 Cal.App.2d 48, 50.) However, failure to rearraign is not cause for reversal when the
defendant's substantial rights are observed, such as when changes in the amended
information are "minor," People v. Williams (1980) 106 Cal.App.3d 15, 19, derive from
evidence adduced at the preliminary hearing, id. at page 20, and/or the defendant receives
the full benefit of a not guilty plea, People v. Walker (1959) 170 Cal.App.2d 159, 164.
Early on, our Supreme Court recognized that the rule regarding in-person pleas is
intended to protect defendants from a guilty plea, but there could not be "any possible
harm to the rights of the prisoner" from entry of a not guilty plea and denial of every
charged allegation. (People v. Thompson (1854) 4 Cal. 238, 242 ["While the law will not
allow an attorney or counsel to admit away the life or liberty of a party, there can be no
danger in permitting him to plead to the whole charge, and put the State to the proof of
the offense"].)
Dalton's substantial rights were observed in this case. He and his counsel had
notice and actual knowledge of the charges contained in the amended information; in
fact, Dalton was physically present in court when the prosecutor provided the amended
information. The offenses charged in the amended information involved the same
underlying acts of sexual molestation against E.D. and S.D. as charged in the original
information. The day that Dalton failed to appear, defense counsel did not intend to
11

APPENDIX C

demur, and Dalton's in-person plea of not guilty would have been a formality. Indeed,
his counsel had essentially been prepared to have Dalton plead not guilty the previous
week. Contrary to Dalton's argument, the trial court did not commit a legal error by
entering a not guilty plea and denials of all allegations on his behalf. (See § 1024 ["If the
defendant refuses to answer the accusatory pleading, by demurrer or plea, a plea of not
guilty must be entered"].) Due to Dalton's voluntary absence while knowing the charges
against him, the court found that Dalton was constructively refusing to answer the
amended information. Accordingly, the court was statutorily permitted to direct the entry
of a not guilty plea.
Moreover, as we discuss further below, the trial court was understandably
concerned about public perception of the judicial system's effectiveness if Dalton's
absconding could impede substantial justice. After being arrested in 2014, Dalton
effectively admitted that he had fled to avoid trial and conviction. The trial court did not
err in proceeding with trial on the amended information.
C.

Whether Dalton Could Receive a Fair Trial

Dalton next contends he could not and did not receive a fair trial in his voluntary
absence. We disagree.
A defendant's right to be personally present at trial may be waived expressly or
implicitly. (People v. Concepcion (2008) 45 Cal.4th 77, 82.) When a defendant is
present at start of trial but later voluntarily absents himself—such as by absconding while
on bail or escaping from custody—trial may proceed in his absence. (Id. at p. 83; § 1043,
subd. (b)(2).) Section 1043, subdivision (b)(2), "provides the trial court with clear
12

APPENDIX C

guidance and direct authority to ensure the orderly process of trial when a defendant is
absent voluntarily." (Concepcion, at pp. 83-84 [discussing the effect of delays and
disruptions on the proper administration of justice].)
Based on our review of the record, Dalton voluntarily and intentionally absented
himself from trial. During motions in limine, Dalton heard that the court would permit
the jury to consider the Tiffany evidence, heard that the charges involving E.D. were not
necessarily time barred, he was scared of being convicted and imprisoned, and he fled.
Further, the trial court discussed the inconveniences suffered and accommodations made
by the court, counsel, witnesses, and jury, which was already impaneled, and the public's
view of the justice system if he were permitted to evade prosecution. Dalton's rights
were reserved, but he waived them by choosing to be absent; any unfairness arising from
his decision to flee was his own doing. The trial court did not err in proceeding with
Dalton's trial in his voluntary absence.
D.

Reporter's Notes of Voir Dire

Dalton complains that missing reporter's notes of voir dire, apparently destroyed
while he was at large, violates his due process rights because he does not have a complete
record on appeal. In May 2015, Dalton filed a request to augment the appellate record
with voir dire transcripts, claiming an insufficiency in voir dire based on the jury having
been allegedly given an incorrect statement of law. He contends the jury was told that
E.D.'s testimony alone could support a conviction on the charges involving her, which
was rendered inaccurate by the statute of limitations allegation under section 803(g). In
response to Dalton's augment request, a Riverside County court reporter returned an
13

APPENDIX C

affidavit of "no notes," declaring he had carefully and thoroughly searched for the
requested notes, but had concluded "that the notes no longer exist, as they are outside the
required ten-year period that we are required to retain the notes under the Code." At no
point did Dalton request a preservation order.
Dalton has not shown prejudice from the unavailable reporter's notes or any viable
issue concerning voir dire. Although rule 8.324 of the California Rules of Court permits
a party to apply to have the reporter's transcript of voir dire included in the record, the
rule does not affect the standard retention or destruction of reporters' notes. Dalton does
not contest that the court reporter's notes were the subject of routine and lawful
destruction. (See People v. Everett (1990) 224 Cal.App.3d 932, 937; Gov. Code,
§ 69955.) Moreover, even if there was an incomplete statement of law during voir dire,
there was no prejudice to Dalton because the jury was extensively instructed prior to
deliberations on the level of proof required under section 803(g), which we presume the
jury understood. Otherwise, as the trial court noted, it is not an incorrect statement of law
that one witness's testimony alone is sufficient to prove any given fact. Dalton has not
demonstrated any violation of his due process rights.
II.

Evidence of Prior Sexual Misconduct
A.

Additional Background

The next set of issues raised by Dalton relates to evidence of him sexually
molesting Tiffany, which the trial court ruled on motions in limine would be admitted
under Evidence Code sections 1108, 1101, subdivision (b), and 352. The court found the
acts described by Tiffany to be substantially similar to the charged offenses, insofar as all
14

APPENDIX C

the girls were within the same age range when the molestations began, were distinctively
offered monetary rewards, and were solicited in the same manner to engage in the same
kind of conduct. Thus, the court decided the Tiffany evidence was highly probative on a
number of issues in the case, including Dalton's propensity, intent, and use of a common
plan. Moreover, the court did not believe the testimony would consume an undue amount
of time or cause confusion, and it was no more inflammatory than the charged acts.
Finally, the court carefully considered that although the prior acts were somewhat remote
in time, Dalton had evidence available to him that could be used to impeach Tiffany's
memory.
The evidence of prior sexual misconduct can be summarized as follows. During
the summer when she was seven, Tiffany recounted that she had been sexually molested
by Dalton, who was around 21.7 They were at her grandfather's office in a warehouse,
locking up the building for the night. Dalton said to Tiffany that if she would rub his
shoulders, he would give her $5. Tiffany first began rubbing his shoulders and, then at
Dalton's request, moved to rubbing his feet and legs. He kept saying "go higher" until
she was rubbing his penis. Tiffany remembered her eyes were closed, though she could
not remember why she had closed them. Dalton's penis was erect, he put his hand over
hers on his penis, and made her "do . . . [rubbing] motions." At the time, Tiffany
believed what was happening was "wrong," but did not understand exactly what was
7
Tiffany's mother, R., is Dalton's half sister through their biological father, Ron.
Tiffany was 28 years old at trial and had lived a large part of her life in Northern
California. During some of her childhood summers, Tiffany would be sent to visit
Southern California and the Dalton family, including Dalton.
15

APPENDIX C

happening. As an adult, she understood that Dalton was "close to orgasming." He
stopped abruptly when he heard a noise outside.
Tiffany further testified that she did not tell anyone about the incident until she
was 16, when she told her mother. Tiffany had heard that "the Daltons" were coming to
visit them, and she asked R. whether "Todd" would also be visiting. Tiffany told R. that
her 11-year-old sister S. should not be left alone with Dalton. Tiffany proceeded to tell
R. that Dalton had molested her as a child. R. fully corroborated the disclosure, recalling
that she had been outdoors gardening at the time, and afterwards, a large earthquake hit
the San Francisco area. R. did not take any further action out of respect for Tiffany's
wish to move on. At the time, Tiffany believed Dalton had just been young and made a
mistake.
More recently, R. received a phone call from her aunt Joyce (Ron's sister) on an
unrelated matter and, during that call, Joyce mentioned that Dalton had been accused by
his children of molesting them. Upon hearing this and knowing what Tiffany had told
her, R. got "very sick to [her] stomach," vomited, and ended the phone call. Neither R.
nor Tiffany was aware of any details of what Dalton allegedly had done to his children.
Tiffany independently sought out the Riverside County District Attorney because she felt
guilty for not saying anything earlier.
B.

Whether the Tiffany Evidence Was Erroneously Admitted

Dalton contends the Tiffany evidence should not have been admitted for the jury's
consideration because it was substantially more prejudicial than probative under

16

APPENDIX C

Evidence Code section 352. He argues the evidence was overly prejudicial because of its
relative strength compared to E.D.'s and S.D.'s testimony.
"Subject to Evidence Code section 352, Evidence Code section 1108 permits a
jury to consider prior incidents of sexual misconduct for the purpose of showing a
defendant's propensity to commit offenses of the same type, and essentially allowing such
evidence to be used in determining whether the defendant is guilty of the current sexual
offense charge." (People v. Miramontes (2010) 189 Cal.App.4th 1085, 1096.) Although
there is a risk of unfairness inherent in all propensity evidence, the Legislature has
determined that the need for uncharged sexual offense evidence is critical given the
serious and secretive nature of sex crimes. (People v. Falsetta (1999) 21 Cal.4th 903,
911 (Falsetta).) Trial courts must determine whether the probative value of such
evidence is substantially outweighed by the possibility of undue consumption of time,
danger of undue prejudice, confusion of issues, or misleading the jury. (Id. at p. 917.)
The weighing process is "entrusted to the sound discretion of the trial judge who is in the
best position to evaluate the evidence." (People v. Fitch (1997) 55 Cal.App.4th 172, 183
(Fitch).)
In evaluating propensity evidence under Evidence Code section 352, trial judges
"must consider such factors as its nature, relevance, and possible remoteness, the degree
of certainty of its commission and the likelihood of confusing, misleading, or distracting
the jurors from their main inquiry, its similarity to the charged offense, its likely
prejudicial impact on the jurors, the burden on the defendant in defending against the
uncharged offense, and the availability of less prejudicial alternatives. . . ." (Falsetta,
17

APPENDIX C

supra, 21 Cal.4th at p. 917.) We will not find that a court abuses its discretion in
admitting other sexual acts evidence unless its ruling " 'falls outside the bounds of
reason.' " (People v. Kipp (1998) 18 Cal.4th 349, 371.) We will only disturb a trial
court's ruling under Evidence Code section 352 where the court has exercised its
discretion in a manner that has resulted in a miscarriage of justice. (People v. Frazier
(2001) 89 Cal.App.4th 30, 42.)
In addition, irrespective of Evidence Code section 1108, evidence of other
uncharged acts may be admitted if such evidence tends to be relevant on an issue other
than to establish defendant's propensity or disposition to commit the charged offenses.
(Evid. Code, § 1101, subd. (b); People v. Balcom (1994) 7 Cal.4th 414, 424 [uncharged
offenses can show "manifestations of a common design" or plan that defendant employed
or developed in committing the charged offenses].) Evidence Code section 1101,
subdivision (b) provides examples of potentially relevant nondispositional facts,
including intent, plan, or absence of mistake.
The record shows that the court conducted a thorough balancing test, and its
decision to admit the Tiffany evidence was reasonable. (See People v. Soto (1998) 64
Cal.App.4th 966, 991 [evidence of defendant's prior acts was "extremely probative of
appellant's sexual misconduct when left alone with young female relatives"].) The
uncharged and charged acts shared remarkable similarities, including characteristics like
Dalton offering to pay the young girls; the incidents would begin with a backrub and
culminate with masturbating him; the girls were told to close their eyes; and they were
similar ages when the abuse began. Tiffany's testimony made it more likely that E.D. and
18

APPENDIX C

S.D. were telling the truth about what had happened to them (and vice versa). The
similarities between the uncharged and charged acts also support the inference that
Dalton had a common method, design, or plan of molesting his young female family
members, which he could claim to be a mistake or an accident individually but was far
more likely to be intentionally wrongful once a pattern was established.
The trial court recognized that Dalton faced a burden in defending against the
uncharged offense, which had happened many years ago. Nevertheless, the court noted
that Dalton had methods of impeaching Tiffany's recollection. The likelihood of jury
confusion or distraction was low given that Tiffany provided a clear, coherent account of
what happened to her, had only one encounter to testify about, and otherwise had little or
no interaction with members of the Dalton family.
Finally, we are not persuaded by Dalton's argument that the Tiffany evidence was
overly prejudicial due to its relative clarity compared to E.D.'s and S.D.'s testimony.

"

'The "prejudice" referred to in Evidence Code section 352 applies to evidence which
uniquely tends to evoke an emotional bias against defendant as an individual and which
has very little effect on the issues. In applying [Evidence Code] section 352,
"prejudicial" is not synonymous with "damaging." ' " (People v. Bolin (1998) 18 Cal.4th
297, 320.) The uncharged acts were no more likely to evoke an emotional bias against
Dalton than the charged acts, which were more depraved and prolonged. As explained
above, the Tiffany evidence was highly relevant. The trial court did not abuse its
discretion in admitting evidence of prior sexual misconduct.

19

APPENDIX C

C.

Propriety of Using the Tiffany Evidence as Corroboration under Section
803(g)

Dalton next challenges the use of the Tiffany evidence to corroborate the offenses
against E.D. under Penal Code section 803(g). He contends that use of prior sexual
misconduct evidence for section 803(g) corroboration violated ex post facto principles
because Evidence Code section 1108 became effective after the commission of Dalton's
crimes involving E.D. He separately contends that evidence of prior sexual misconduct
admitted under Evidence Code section 1108 should not be permitted to be used as section
803(g) corroboration.
Prior to 1999, section 803(g) provided in pertinent part, "(1) Notwithstanding any
other limitation of time described in this chapter, a criminal complaint may be filed
within one year of the date of a report to a California law enforcement agency by a
person of any age alleging that he or she, while under the age of 18 years, was the victim
of a crime described in Section . . . 288, 288a, 288.5, 289 . . . . [¶] (2) This subdivision
applies only if both of the following occur: [¶] (A) The limitation period specified in
Section 800 or 801 has expired. [¶] (B) The crime involved substantial sexual
conduct . . . and there is independent evidence that clearly and convincingly corroborates
the victim's allegation. No evidence may be used to corroborate the victim's allegation
that otherwise would be inadmissible during trial." (§ 803(g), italics added.) The
Legislature added section 803(g) to the statutory scheme to permit prosecution of
specified crimes for an additional period—within one year of the time the victim reports
an independently corroborated crime to law enforcement officials. (People v. Frazer
20

APPENDIX C

(1999) 21 Cal.4th 737, 742, abrogated by Stogner v. California (2003) 539 U.S. 607
(Stogner), as to crimes with previously expired limitations periods.) Requiring the
prosecutor to produce independent corroborating evidence under section 803(g) is a
"procedural burden" to bringing a criminal complaint. (People v. Zandrino (2002) 100
Cal.App.4th 74, 85 (Zandrino).)
We first address Dalton's ex post facto argument. At the time of Dalton's alleged
crimes against E.D. in the early 1990's, Penal Code section 803(g) and Evidence Code
section 1108 were not effective. By its own terms, Penal Code section 803(g) became
effective on January 1, 1994. (Pen. Code, § 803, subd. (g)(3).) Evidence Code section
1108 became effective on January 1, 1996. (Fitch, supra, 55 Cal.App.4th at p. 185.)
Dalton argues that use of propensity evidence to serve as Penal Code section 803(g)
corroboration in this case was an ex post facto violation since propensity evidence would
not have been admissible prior to 1996.
We conclude that Dalton has not established an ex post facto violation. "The
traditional understanding of the ex post facto clause was expressed in Beazell v. Ohio
(1925) 269 U.S. 167, 169-170 [citations], as follows: 'It is settled . . . that any statute
which punishes as a crime an act previously committed, which was innocent when done;
which makes more burdensome the punishment for a crime, after its commission, or
which deprives one charged with [a] crime of any defense available according to law at
the time when the act [was] committed, is prohibited as ex post facto.' " (People v.
Delgado (2006) 140 Cal.App.4th 1157, 1164 (Delgado).) Courts have found that
application of Evidence Code section 1108 to offenses that occurred prior to its
21

APPENDIX C

enactment does not violate the ex post facto clause because the statute does not affect the
sufficiency of evidence required for a criminal conviction. (Fitch, supra, 55 Cal.App.4th
at p. 186; People v. Flores (2009) 176 Cal.App.4th 1171, 1181.) In addition, the
Legislature may extend a statute of limitations before it has expired without violating the
ex post facto clause. (Stogner, supra, 539 U.S. at p. 618.) Penal Code Section 803(g) has
been so upheld. (People v. Terry (2005) 127 Cal.App.4th 750, 775 ["[E]xtensions of
existing, unexpired limitations periods are not ex post facto because such extensions do
not resurrect otherwise time-barred prosecutions."].)
Here, if Dalton had been prosecuted prior to 1996 for sex crimes against E.D., the
statute of limitations would not have been a defense. (Penal Code, § 800 [six-year
limitations period].) At the time of Dalton's trial in 2001, the state was thus required to
meet a procedural hurdle that it was not previously required to meet. (Zandrino, supra,
100 Cal.App.4th at pp. 83-84.) Use of propensity evidence as corroboration under
section 803(g) did not constitute an ex post facto violation because, compared to the law
in effect at the time of the crimes' commission, Dalton was not deprived of a defense
available to him, criminal conduct was not redefined, and less evidence was not required
to convict him. The Tiffany evidence was also admitted under Evidence Code section
1101, subdivision (b). Dalton has not demonstrated that use of the Tiffany evidence to
satisfy Penal Code section 803(g)'s corroboration requirement violated the ex post facto
clause.
We next address Dalton's argument that propensity evidence should not be
permitted to serve as section 803(g) corroboration. He concedes that current law permits
22

APPENDIX C

such use. As various courts have noted, evidence of prior sexual misconduct carries a
significant and unique probative value in cases involving sex crimes. (E.g., People v.
Yovanov (1999) 69 Cal.App.4th 392, 403-404 (Yovanov); see also People v. Mabini
(2001) 92 Cal.App.4th 654, 659 [concluding that evidence of a single uncharged offense
against a different victim provided sufficient corroboration under § 803(g)].)
Here, the uncharged sexual offense supported characteristic features of Dalton's
molestation "routine" and the fact of a common plan—more than just a general status of
him being a child molester. The evidence tended to connect Dalton with the commission
of the offense. Also, like in Yovanov, there was other independent evidence supporting
E.D.'s allegations, including S.D.'s testimony of being sexually molested and, to an
extent, her brothers' testimony regarding Dalton's retiring into his bedroom after work
and obtaining massages from the children. The trial court properly permitted the jury to
consider whether the Tiffany evidence (as well as other evidence) clearly and
convincingly corroborated E.D.'s allegations for purposes of section 803(g). Dalton has
failed to demonstrate any errors regarding evidence of prior sexual misconduct.
III.

Sentencing
Dalton's remaining claims raise sentencing issues. He contends that the trial court

erred by sentencing him on count 7 to serve a term of 15 years to life in state prison under
the so-called "One Strike" law (§ 667.61, subd. (b)), because section 288.5 was not a
triggering offense under the One Strike law until after Dalton committed the crime, and
the sentence he received is more severe than the sentence he would have received under
the law in effect at the time he committed the crime. The People concede the error,
23

APPENDIX C

which we conclude is appropriate. Therefore, we will vacate the sentence imposed on
count 7 and remand for imposition of a determinate sentence.
Dalton also challenges the trial court's sentences on counts 8 and 9. On those
counts, the court sentenced him to terms of 15 years to life in state prison under former
section 667.61, subdivision (e)(5), which authorizes such a sentence when "[t]he
defendant has been convicted in the present case or cases of committing an offense
specified in subdivision (c) against more than one victim." Dalton contends the sentences
are unlawful because they have been imposed based on conduct that occurred before
section 667.61, subdivision (e)(5) went into effect, in violation of ex post facto principles.
Dalton acknowledges that his precise claim was rejected by this district in People v.
Acosta (2009) 176 Cal.App.4th 472, 475-477 (Acosta), in reliance on People v. Alvarez
(2002) 100 Cal.App.4th 1170, 1179 (Alvarez), but he urges that the cases were wrongly
decided.
"Section 667.61, subdivision (e)(5), does not require that the crimes against the
other victim have been subject to the one strike law when they were committed."
(Alvarez, supra, 100 Cal.App.4th at p. 1179.) The Alvarez court analogized to cases
involving the "Three Strikes" law, which hold that the Three Strikes law can be applied to
an offense committed after the law's effective date, even though the qualifying "strikes"
were committed before the law's effective date. (Ibid., citing People v. James (2001) 91
Cal.App.4th 1147, 1150.) In Acosta, the court discussed that at the time of the
defendant's committing his later offense, he was on "notice" of the One Strike law but
chose to be a repeat offender. (Acosta, supra, 176 Cal.App.4th at p. 476.) Thus, the
24

APPENDIX C

central concern to ex post facto prohibitions was not implicated. (Ibid.; see also People v.
Grant (1999) 20 Cal.4th 150, 162 [conviction for continuous sexual abuse based on some
conduct that predated enactment of § 288.5 was not ex post facto as offenders had " 'fair
warning' " that continuing to engage in sexual abuse of a child would subject them to
punishment].)
We agree with the above principles. Section 667.61, subdivision (e)(5), gave fair
warning to those who committed specified sexual offenses before it took effect that if
they committed sexual offenses against another victim after the law's effective date, they
would be subject to increased punishment. Dalton's sentences of 15 years to life on
counts 8 and 9 (involving S.D.) do not violate the ex post facto clause because those
crimes occurred after section 667.61, subdivision (e)(5), went into effect (in 1994), and
Dalton was convicted in the same case of lewd and lascivious acts against E.D. We are
not convinced by Dalton's arguments that a defendant must have been first convicted of
(or have a meaningful awareness of having committed) criminal acts against one victim
before the multiple victim circumstance can apply. The plain language of the statute does
not support his position. The trial court properly imposed indeterminate terms on counts
8 and 9.
Finally, Dalton challenges the trial court's imposition of consecutive terms on
counts 7, 8, and 9.8 In imposing those sentences the trial court stated, in pertinent part,

8
Dalton also asserts that the trial court erroneously believed it was mandatory to
impose a consecutive term on count 1. Based on our review of the record, the trial judge
25

APPENDIX C

"as a result of the passage of the three-strikes law under [section] 667[, subdivision]
(c)(6), a consecutive sentence is mandatory. So it's my belief that the sentences on
Counts 7, 8, and 9 are life sentences, consecutive. . . ." Later, the court reiterated, "the
strike laws that were in effect for counts 7, 8, and 9" required those terms to be
consecutive. Dalton's counsel requested the minimum sentence permitted under the law,
but did not specifically object to the trial court's recitation of the law. Nevertheless, we
will address the sentencing issue on the merits. (See People v. Welch (1993) 5 Cal.4th
228, 236 [discussing reviewing courts' unwillingness to ignore clear and correctable legal
errors in the sentencing context].)
The People acknowledge that when counts 7 through 9 (violations of §§ 288.5 and
288, subdivision (a)) were committed between 1997 and 1999, there was no law
mandating consecutive sentences for those counts. Section 667, subdivision (c)(6), the
Three Strikes law invoked by the trial court, certainly did not apply because Dalton did
not have any prior serious and/or violent felony convictions. In addition, counts 7
through 9 are not crimes included in former section 667.6, subdivision (d), and therefore
consecutive sentences are not mandatory. The trial court retained discretion to impose
either concurrent or consecutive sentences. (People v. Valdez (2011) 193 Cal.App.4th
1515, 1524; People v. Rodriguez (2005) 130 Cal.App.4th 1257, 1262 ["In exercising its
discretion whether to impose concurrent or consecutive terms, a trial court should
consider the factors set forth in California Rules of Court, rule 4.425 . . . ."].) Because

did not believe a mandatory consecutive term was required on count 1, but was inclined
to sentence it that way.
26

APPENDIX C

the trial court mistakenly believed consecutive sentences were mandatory and did not
otherwise indicate that it was aware it had discretion to choose concurrent sentences for
counts 7 through 9, its imposition of those sentences was not an exercise of the court's
discretionary sentencing authority. On remand, the trial court is directed to exercise its
discretion on whether to impose consecutive or concurrent sentences for counts 7
through 9.
DISPOSITION
The judgment of conviction is affirmed as to all counts. The sentence is vacated
and the case remanded for resentencing. The trial court shall impose a new sentence on
count 7 based on the determinate sentences applicable at the time of the offense and
exercise its discretion in determining whether the sentences on counts 7, 8, and 9 should
be served concurrently or consecutively. The court is direct to prepare and amended
abstract of judgment reflecting the resentencing and forward a certified copy of the
amended abstract to the Department of Corrections and Rehabilitation.

BENKE, Acting P. J.
WE CONCUR:

NARES, J.

McINTYRE, J.

27

APPENDIX C

Filed 5/31/17 P. v. Dalton CA4/1

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

COURT OF APPEAL, FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA

THE PEOPLE,

D071642

Plaintiff and Respondent,
v.

(Super. Ct. No. RIF088836)

TODD ERIC DALTON,
Defendant and Appellant.

APPEAL from an order of the Superior Court of Riverside County, Becky Dugan,
Judge. Affirmed.
Christian C. Buckley, under appointment by the Court of Appeal, for Defendant
and Appellant.
No appearance for Plaintiff and Respondent.
In this criminal case, appointed appellate counsel has filed a brief presenting no
argument for reversal, but requesting this court to review the record for error in
accordance with People v. Wende (1979) 25 Cal.3d 436 (Wende). We offered defendant
Todd Eric Dalton the opportunity to file his own brief on appeal, and he has not done so.

APPENDIX C

After independently reviewing the record for error, as required by Anders v. California
(1967) 386 U.S. 738 (Anders) and Wende, we affirm.
BACKGROUND
This is Dalton's second appeal. We previously affirmed his convictions for
numerous crimes involving the prolonged sexual abuse of his daughters, who were both
under 14 years old at the time they were molested. (People v. Dalton (D069278, Apr. 28,
2016) [nonpub. opn.] (Dalton I).) In particular, we affirmed Dalton's conviction of (1)
continuous sexual abuse of one of his daughters in violation of section 288.5 between
1997 and 1998 (count 7), and (2) two counts of lewd and lascivious acts on that same
daughter in violation of section 288 between 1998 and 1999 (counts 8 & 9).
We remanded for resentencing on counts 7 through 9 based on conceded trial
court errors. The court erroneously sentenced Dalton to an indeterminate prison term on
count 7 when the law at the time of the offense required a determinate term. On counts 8
and 9, the court sentenced Dalton to serve consecutive prison terms of 15 years to life
based on an apparent belief that consecutive sentences were mandatory, when the court
actually retained discretion to select consecutive or concurrent sentences. We directed
the court to enter a determinate term on count 7 and to exercise its discretion in
determining whether the sentences on counts 7, 8, and 9 should be served concurrently or
consecutively. (Dalton I.)
On remand, the court considered its records and the facts, sentencing briefs,
parties' arguments, Dalton's statement, and other submitted materials, and resentenced
Dalton to serve a consecutive four-year term on count 7 and consecutive 15-years-to-life
2

APPENDIX C

terms on counts 8 and 9. In doing so, the court explicitly referenced its discretion and the
factors it had considered, including Dalton's lack of remorse, lack of insight into the harm
he had caused his daughters, the horrendousness of the sexual abuse, his failure to accept
responsibility, his absconding during trial, his manipulation of other children during trial
proceedings, and other outrageous conduct, mitigated only by his lack of prior criminal
record. The court discussed that the many aggravating factors were in no way offset by
the single mitigating factor.
Dalton appeals from the order entered after his resentencing hearing.
DISCUSSION
As we have indicated, appellate counsel filed a brief summarizing the trial court
proceedings. Counsel has presented no argument for reversal and asks this court to
review the record for error as mandated by Wende, supra, 25 Cal.3d 436. Pursuant to
Anders, supra, 386 U.S. 738, the brief identifies one potential issue: Was it an abuse of
discretion to impose consecutive sentences on counts 7, 8, and 9?
The issue identified by counsel is not arguable on its merits, and a review of the
entire record pursuant to Wende, supra, 25 Cal.3d 436 and Anders, supra, 386 U.S. 738,
has disclosed no reasonably arguable appellate issue. Competent counsel has represented
Dalton on appeal.

3

APPENDIX C

DISPOSITION
The order is affirmed.

BENKE, Acting P. J.
WE CONCUR:

NARES, J.

O'ROURKE, J.

4

APPENDIX C

